<html>
<title> - BUILDING ON SUCCESS: REAUTHORIZATION OF TEA-21</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
            BUILDING ON SUCCESS: REAUTHORIZATION OF TEA-21
=======================================================================

                                (107-61)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                      HIGHWAYS AND TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

             FEBRUARY 7, 2002 (Administration Perspectives)
           FEBRUARY 28, 2002 (Governors and Local Officials)

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure











                           U.S. GOVERNMENT PRINTING OFFICE
79-803                          WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001











             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL II, West Virginia
SHERWOOD L. BOEHLERT, New York       ROBERT A. BORSKI, Pennsylvania
HOWARD COBLE, North Carolina         WILLIAM O. LIPINSKI, Illinois
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
WAYNE T. GILCHREST, Maryland         BOB CLEMENT, Tennessee
STEPHEN HORN, California             JERRY F. COSTELLO, Illinois
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, District of 
JACK QUINN, New York                 Columbia
VERNON J. EHLERS, Michigan           JERROLD NADLER, New York
SPENCER BACHUS, Alabama              ROBERT MENENDEZ, New Jersey
STEVEN C. LaTOURETTE, Ohio           CORRINE BROWN, Florida
SUE W. KELLY, New York               JAMES A. BARCIA, Michigan
RICHARD H. BAKER, Louisiana          BOB FILNER, California
ROBERT W. NEY, Ohio                  EDDIE BERNICE JOHNSON, Texas
JOHN R. THUNE, South Dakota          FRANK MASCARA, Pennsylvania
FRANK A. LoBIONDO, New Jersey        GENE TAYLOR, Mississippi
JERRY MORAN, Kansas                  JUANITA MILLENDER-MCDONALD, 
RICHARD W. POMBO, California         California
JIM DeMINT, South Carolina           ELIJAH E. CUMMINGS, Maryland
DOUG BEREUTER, Nebraska              EARL BLUMENAUER, Oregon
MICHAEL K. SIMPSON, Idaho            MAX SANDLIN, Texas
JOHNNY ISAKSON, Georgia              ELLEN O. TAUSCHER, California
ROBIN HAYES, North Carolina          BILL PASCRELL, Jr., New Jersey
ROB SIMMONS, Connecticut             LEONARD L. BOSWELL, Iowa
MIKE ROGERS, Michigan                TIM HOLDEN, Pennsylvania
SHELLEY MOORE CAPITO, West Virginia  NICK LAMPSON, Texas
MARK STEVEN KIRK, Illinois           JOHN ELIAS BALDACCI, Maine
HENRY E. BROWN, Jr., South Carolina  MARION BERRY, Arkansas
TIMOTHY V. JOHNSON, Illinois         BRIAN BAIRD, Washington
BRIAN D. KERNS, Indiana              SHELLEY BERKLEY, Nevada
DENNIS R. REHBERG, Montana           BRAD CARSON, Oklahoma
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
MIKE FERGUSON, New Jersey            MICHAEL M. HONDA, California
SAM GRAVES, Missouri                 RICK LARSEN, Washington
C.L. (BUTCH) OTTER, Idaho            MICHAEL E. CAPUANO, Massachusetts
MARK R. KENNEDY, Minnesota
JOHN ABNEY CULBERSON, Texas
BILL SHUSTER, Pennsylvania
JOHN BOOZMAN, Arkansas
JOHN SULLIVAN, Oklahoma

                                  (ii)











                  Subcommittee on Highways and Transit

                  THOMAS E. PETRI, Wisconsin, Chairman

SHERWOOD L. BOEHLERT, New York       ROBERT A. BORSKI, Pennsylvania
HOWARD COBLE, North Carolina         NICK J. RAHALL II, West Virginia
JOHN J. DUNCAN, Jr., Tennessee       JAMES A. BARCIA, Michigan
JOHN L. MICA, Florida                BOB FILNER, California
JACK QUINN, New York                 FRANK MASCARA, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           JUANITA MILLENDER-McDONALD, 
SUE W. KELLY, New York               California
RICHARD H. BAKER, Louisana           ELIJAH E. CUMMINGS, Maryland
JOHN R. THUNE, South Dakota          MAX SANDLIN, Texas
JERRY MORAN, Kansas                  BILL PASCRELL, Jr., New Jersey
RICHARD W. POMBO, California         TIM HOLDEN, Pennsylvania
JIM DeMINT, South Carolina           SHELLEY BERKLEY, Nevada
DOUG BEREUTER, Nebraska              ELLEN O. TAUSCHER, California
JOHNNY ISAKSON, Georgia              BRAD CARSON, Oklahoma
ROBIN HAYES, North Carolina          JIM MATHESON, Utah
ROB SIMMONS, Connecticut             MICHAEL M. HONDA, California
MIKE ROGERS, Michigan                RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  WILLIAM O. LIPINSKI, Illinois
MARK STEVEN KIRK, Illinois           BOB CLEMENT, Tennessee
HENRY E. BROWN, Jr., South Carolina  JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         EDDIE BERNICE JOHNSON, Texas
BRIAN D. KERNS, Indiana              LEONARD L. BOSWELL, Iowa
DENNIS R. REHBERG, Montana           BRIAN BAIRD, Washington
TODD RUSSELL PLATTS, Pennsylvania    JERRY F. COSTELLO, Illinois
MIKE FERGUSON, New Jersey            CORRINE BROWN, Florida
SAM GRAVES, Missouri                 JAMES L. OBERSTAR, Minnesota
C.L. (BUTCH) OTTER, Idaho            MICHAEL E. CAPUANO, Massachusetts
MARK R. KENNEDY, Minnesota, Vice-      (ex officio)
Chair
BILL SHUSTER, Pennsylvania
DON YOUNG, Alaska
  (ex officio)

                                 (iii)

















                                CONTENTS

Proceedings of:

  February 7, 2002...............................................     1
  February 28, 2002..............................................    94

                            FEBRUARY 7, 2002
                               TESTIMONY

                                                                   Page
 Clapp, Hon. Joseph M., Administrator, Federal Motor Carrier 
  Safety Administration..........................................    11
 Dorn, Hon. Jennifer L., Administrator, Federal Transit 
  Administration.................................................    11
 Peters, Hon. Mary E., Administrator, Federal Highway 
  Administration.................................................    11
 Runge, Hon. Jeffrey W., Administrator, National Highway Traffic 
  Safety Administration..........................................    11

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Ferguson, Hon. Mike, of New Jersey...............................    37
Johnson, Hon. Eddie Bernice, of Texas............................    38
Otter, Hon. Butch, of Idaho......................................    39
Rahall, Hon. Nick J., II, of West Virginia.......................    88
Tauscher, Hon. Ellen O., of California...........................    91
Thune, Hon. John, of South Dakota................................    92

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Clapp, Hon. Joseph M............................................    40
 Dorn, Hon. Jennifer L...........................................    40
 Peters, Hon. Mary E.............................................    40
 Runge, Hon. Jeffrey W...........................................    40

                       SUBMISSIONS FOR THE RECORD

Responses to questions from the Federal Highway Administration...    55
Responses to questions from the Federal Transit Administration...    59
Responses to questions from the National Highway Traffic Safety 
  Administration.................................................    63
Responses to questions from the Federal Motor Carrier Safety 
  Administration.................................................    69

                           FEBRUARY 28, 2002
                               TESTIMONY

                                                                   Page
 Barr, Hon. Kenneth, Mayor, representing Fort Worth, Texas, and 
  the U.S. Conference of Mayors..................................   110
 Greyson, Hon. Sandy, Councilmember, representing Dallas, Texas, 
  and the National League of Cities..............................   110
 Hart, Hon. Chris, County Commissioner, representing Hillsborough 
  County, Florida, and the National Association of Counties, 
  Transportation Steering Committee..............................   110
 Lehman, Maria, Commissioner of Public Works, on behalf of Hon. 
  Joel Giambra, County Executive, Erie County, New York..........   110
 Miller, Hon. Karen M., County Commissioner, representing Boone 
  County, Missouri, and the National Association of Counties, 
  Executive Committee............................................   110
 Patton, Hon. Paul E., Governor, representing the Commonwealth of 
  Kentucky, and the National Governors Association...............   100

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Costello, Hon. Jerry F., of Illinois.............................   147
Millender-McDonald, Hon. Juanita, of California..................   184
Rahall, Hon. Nick J., II, of West Virginia.......................   203
Thune, Hon. John, of South Dakota................................   206

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Barr, Hon. Kenneth..............................................   128
 Greyson, Hon. Sandy.............................................   149
 Hart, Hon. Chris................................................   159
 Lehman, Maria...................................................   166
 Miller, Hon. Karen M............................................   190
 Patton, Hon. Paul E.............................................   197

                       SUBMISSION FOR THE RECORD

 Barr, Hon. Kenneth, Mayor, representing Fort Worth, Texas, and 
  the U.S. Conference of Mayors, charts..........................   137

                        ADDITIONS TO THE RECORD

Board of Commissioners of Fulton County, Chairman Mike Kenn, 
  letter to Rep. Isakson.........................................   208
Georgia Department of Transportation, State Highway Alliance for 
  Real Equity (SHARE), statement.................................   209













  BUILDING ON SUCCESS: ADMINISTRATION PERSPECTIVES ON CURRENT ISSUES 
                  AFFECTING REAUTHORIZATION OF TEA 21

                              ----------                              


                       Thursday, February 7, 2002

        House of Representatives, Committee on 
            Transportation and Infrastructure, Subcommittee 
            on Highways and Transit, Washington, D.C.
    The committee met, pursuant to call, at 10:00 a.m., in room 
2167, Rayburn House Office Building, Hon. Thomas E. Petri 
[chairman of the subcommittee] presiding.
    Mr. Petri. The subcommittee will come to order.
    We are meeting this morning to hear perspectives from new 
administrators of the Department of Transportation on 
reauthorization of the Transportation Equity Act for the 21st 
Century, known as TEA 21.
    We are now in the fifth budget year of the landmark six 
year Service Transportation Law, which is far enough along to 
know that, on the whole, it has been a tremendous success.
    Last Fall, at our hearing on TEA 21 success stories, we 
heard from State directors of transportation, CEOs of transit 
authorities and their consultants. These witnesses representing 
all geographic regions of the country had a message in common.
    Overwhelmingly, TEA 21 has been a success. Each witness 
spoke of projects funded by TEA 21 that improved mobility, 
reduced traffic congestion, strengthened our economy and 
improved our quality of life.
    The theme of this hearing is building on that success. This 
hearing represents a look forward to the next authorization 
bill, a fitting start to our subcommittee's business for the 
second session of the 107th Congress.
    This will be the first in a series of hearings on 
reauthorization of TEA 21. We will build on the success of the 
program by keeping the promises of TEA 21 in place.
    These included: keeping the trust in the Highway Trust Fund 
by not allowing diversions of these funds for non-
transportation purposes; extending the budgetary firewalls to 
make sure that surpluses in the Highway Trust Fund are not used 
to mask deficit spending; extending the minimum guarantee to 
continue the promise of funding equity among the states; 
maximizing program flexibility, so each State can best utilize 
funds to meet their needs; and continuing incentive-based 
approaches to encourage the states to reduce highway injuries 
and deaths; and supporting truck safety through enforcement of 
standards, through roadside safety inspections, and overseeing 
the commercial drivers license program.
    Building on TEA 21 also requires new ideas, including 
improving the revenue-aligned budget authority calculation to 
avoid excessive swings in funding levels, something very much 
on our mind at this particular moment; providing clearer 
direction on how to expedite projects; project delivery through 
streamlining; and creating stable allocated and discretionary 
programs that will not be earmarked by the appropriations 
committees. I am very pleased that this issue is being raised 
in the President's budget.
    The growth in highway and transit funds, provided through 
the guaranteed firewalls of TEA 21, has fostered a meaningful 
increase in construction, interstate maintenance, transit 
ridership, and expanded availability of transit services in 
every city and community around our Nation.
    Transportation improvements have been planned and built or 
expanded during this authorization cycle, and the oversight of 
how these funds are being spent has been sharpened at every 
level, from planning to preliminary engineering and design 
through construction.
    I would like to take this opportunity to welcome the new 
agency heads to this committee room, and probably not for the 
only time. We are fortunate to have a capable group of leaders 
to serve our area in the transportation sector. We thank you 
for your public service, and we welcome you.
    At this time, I would like to yield to the Ranking Democrat 
on the subcommittee, Bob Borski, for any statement that he 
would like to make.
    Mr. Borski. Thank you, Mr. Chairman.
    Mr. Chairman, let me first commend you for scheduling 
today's hearing to receive testimony from the modal operators 
on current issues affecting reauthorization of TEA 21.
    Today's hearing also provides the subcommittee with an 
opportunity to raise concerns about the Administration's 
proposed fiscal year 2003 budget, and its impact on the 
transportation sector of the economy.
    As the subcommittee moves forward with the reauthorization 
of the Surface Transportation Programs, we must focus our 
attention on the accomplishments of the past, and support 
efforts to make improvements for the future that will enhance 
our transportation program.
    The condition and performance of our transportation 
infrastructure is crucial to the Nation's economic growth, 
global competitiveness, and overall quality of life.
    Through the enactment of TEA 21, the Congress took a major 
step towards improving the Nation's transportation 
infrastructure by providing increased funding and guaranteed 
funding for transportation programs. The guarantees funding 
levels were protected by the budgeting firewalls.
    Mr. Chairman, I believe this committee must be vigilant and 
resolute in our efforts to maintain the guaranteed funding 
levels with the firewall protections.
    Over the past three years, the Nation has benefitted from 
the improvements made to the transportation infrastructure, 
resulting from the increased funding levels provided in TEA 21.
    The TEA 21 firewalls for the transit program have had a 
very favorable impact on local transit agencies. The agencies 
have been able to plan and advance projects with a significant 
level of predictability.
    However, with 110 new start projects, costing more than $60 
billion under consideration for future funding, the committee 
needs to address the full funding grant agreement mechanism for 
the delivery of new start funds.
    With safety and security being major priorities for the 
committee, we need to hear how the administration proposes to 
enhance safety on our Nation's highways and transit system.
    Last year, over 40,000 fatalities occurred on our Nation's 
highways. Due to ongoing increases in vehicle miles traveled, 
the number of fatalities may continue to grow. The committee, 
along with the support of the Administration, must develop 
programs that will enhance highway safety among all users of 
the system.
    Mr. Chairman, as the Nation struggles to climb out of the 
recession, the Nation's transportation infrastructure must not 
fall victim to budget battles and conflicts. We must target our 
efforts on transportation programs that will stimulate the 
economy and maintain jobs.
    The transportation sector has a long history of providing 
good paying jobs and critical infrastructure improvements that 
enhance economic growth throughout the country. For every $1 
billion invested in transportation, over 40,000 jobs are 
created.
    The projected negative funding levels will result in an 
$8.5 billion or 27 percent reduction in Federal aid to highway 
program funding levels.
    Such a drastic reduction may very well extend the term of 
the current recession. State and local governments will be 
forced to scale back their highway programs. This would be 
devastating in my home State of Pennsylvania. We would lose 
over $346 million and 14,500 jobs.
    The Nation is facing a number of challenges at home and 
abroad, Mr. Chairman. We must do our part to strengthen this 
great Nation. One of the most effective tools available to this 
committee is continued investment in the Nation's 
transportation infrastructure, using dedicated transportation 
revenues.
    So as we proceed with this hearing, I am very interested in 
hearing how the witnesses will respond to the concerns of our 
committee.
    Thank you, Mr. Chairman.
    Mr. Petri. Thank you.
    A statement by the Chairman of the full committee, Mr. 
Young, will be made a part of the record.
    Mr. Oberstar?
    Mr. Oberstar. Good morning, Mr. Chairman.
    Thank you for inaugurating these hearings, and my 
appreciation to you and Mr. Borski. This is the best day for 
transportation since the budget appeared.
    [Laughter.]
    Mr. Oberstar. That is because this is the day we begin to 
turn things around and get the transportation investment 
programs back on track.
    I see we have an all star line-up. We welcome Ms. Peters, 
Ms. Dorn, Dr. Runge, and Mr. Clapp. Thank you very much for 
being with us today. We have got the first string up here 
today.
    So I just want to make a few observations, since I said an 
awful lot yesterday. First of all, the capital investments we 
make in transportation have the effect of contributing 25 
percent to the Nation's annual productivity growth. One-fourth 
the yearly productivity improvement of the Nation's economy is 
directly attributable to transportation. If you cut 
transportation, you have an adverse serious direct effect upon 
productivity.
    Beginning with ISTEA, and continuing with TEA 21 and 
expanding upon ISTEA, we have continued to improve 
productivity, improve mobility, enhance personal safety, and 
increase the movement of goods, as well as people, throughout 
the United States.
    In the 42 years of the Interstate Highway Program and the 
initial Highway Trust Fund, we spent $114 billion on that 
44,000 mile system of roadways. The states spent another $14 
billion.
    In the first four years of TEA 21, we invested $114 
billion, in four years, because of the guaranteed account, 
because of the dedicated revenue stream, because the states 
could count on that money, because the contractor community 
could count on that money, because the building trades knew 
they could train people and put them to work, and we created 
1.5 million new jobs.
    Flexibility, minimum funding guarantees, establishing the 
80 percent Federal match for both highways and transit were 
critical to winning the broad base of support, and to 
generating those benefits that I mentioned a moment ago.
    So the Administration's proposal now to chop the Federal 
match to 50 percent for new starts breaks faith with TEA 21, 
breaks faith with the coalition we brought together, and must 
not be allowed to stand.
    The minimum guarantees that we established, that took a lot 
of work, with staff on both sides of the aisle, members on both 
sides of the aisle, working together to create the minimum 
guarantee to bring everybody together under the tent. Now we 
are saying, sorry, that does not work. We are going to have an 
$8.5 billion cut.
    TEA 21 authorized $15 billion beyond the firewalls, 
including $3 billion for the current fiscal year, or the 
upcoming fiscal year, I should say. The Highway Trust Fund has 
a current account balance of close to $20 billion. Some of 
that, of course, is committed against projects under way, but 
there is money.
    Now the President says, I am for jobs, and that is the 
answer. I pat him on the back. But you cannot be for the jobs 
and not for the money to create the jobs.
    We had a vote yesterday to reaffirm the tax cut. Well, let 
me tell you, if this budget cut stands, then we will have, in 
fact, ratified a tax increase, because you are continuing to 
collect money and generate revenues for projects that are not 
going to be built. That was a principle that infuriated 
Chairman Shuster over the previous years, and for which we 
joined forces to create the firewalls.
    The taxes collected should be invested in the projects for 
which they were collected. If you are not going to do that, 
then cut the tax, roll it back. Otherwise, that is a tax 
increase. We have said that over and over and over again, and I 
will say it once more. So I do not think we can let that stand.
    A further concern I have about the President's budget is 
that all the resources for the transportation security 
administration that will be transferred from other modal 
budgets for security functions that are important and necessary 
to do, we have got to be very careful that we are not taking 
out of one transportation pocket and putting it into another, 
robbing Peter to pay Paul.
    Finally, we must not lose site of highway safety. When the 
interstate program was being crafted in 1956, projections then 
were, if we did not improve the Nation's transportation 
network, we would be killing 100,000 people a year. That was 
1956. The highway death toll continued to increase until we 
began to put the interstate highway system into place, and draw 
those deaths down.
    But we still, last year, had 41,800-plus people killed, 3.2 
million injured, $150 billion spent in insurance and other 
costs; not even to mention the toll in human suffering. We put 
a lot of money into highway safety in TEA 21, and we must not 
let those investments be degraded.
    So I look forward to this set of hearings that you 
inaugurate, Mr. Chairman, Mr. Borski, and I thank you very 
much.
    Mr. Petri. Thank you.
    Mr. Coble?
    Mr. Coble. I have no opening statement, Mr. Chairman.
    Mr. Petri. Mr. Bereuter?
    Mr. Bereuter. Thank you, Mr. Chairman, and I want to 
welcome the witnesses, as well.
    My comments will be very brief, for emphasis. I think at a 
time when we are trying to pull ourselves out of recession, it 
is the last time that we should be reducing expenditures for 
highway construction and maintenance, or for other 
transportation infrastructure. So I am going to do whatever I 
can to make sure that we do not have those kind of reductions. 
It is an inappropriate time to be cutting back.
    When Americans pull up to the gasoline pumps, they expect 
that their Federal and State highway tax dollars are going to 
be spent for transportation, primarily for highway construction 
and maintenance; and they expect, as Congress has made itself 
clear, that those are going to be spend expeditiously.
    Administrations of either party, of course, have resisted 
that, because they want to be able to borrow from the Highway 
Trust Funds at, of course, a reduced rate from private sector 
borrowing. I understand that, but that is not the arrangement 
we have with the American public.
    Finally, I want to say that my State and this member has 
particular concerns about the progress on the highway rail 
grade crossing safety programs; about not only the progress, 
but the priorities in funding.
    My State probably has one of the most severe rail crossing 
problems in the world, because of the extraordinary and growing 
number of unit trains hauling coal across the country and 
returning to Wyoming and Utah. So we are very concerned about 
that. We do not think sufficient priority has been given to it.
    Thank you, Mr. Chairman.
    Mr. Petri. Thank you.
    Mr. Rahall?
    Mr. Rahall. Thank you, Mr. Chairman.
    Mr. Chairman, I do commend you and Ranking Member Borski 
for holding this hearing today. I look forward to the testimony 
from the Administration witnesses. I want to commend both of 
you, as well, for the bipartisan fashion in which you continue 
to work to try to keep faith, as our Ranking Member, Mr. 
Oberstar, has said, with TEA 21.
    These cuts that are proposed in the Administration's budget 
are devastating to many states. They affect, of course, all 50 
states. The 50 states rely on the monies from TEA 21 for 
planning for their projects, just as any industry would rely 
and must rely on a definite flow of money to make investments 
for their job producing activities.
    This does mean jobs. The ripple-down effects are evident to 
all of us in all aspects of our economy. In my home State of 
West Virginia, it means not only money, but it means jobs, as 
well. I hope that we will continue in the bipartisan fashion 
that has been set out by you and Mr. Borski in restoring these 
cuts.
    Thank you, and I ask unanimous consent to put my remarks in 
the record.
    Mr. Petri. Thank you, without objection, so ordered.
    Mr. Otter?
    Mr. Otter. Thank you very much, Mr. Chairman, and thank you 
for your leadership in calling this hearing.
    I believe that TEA 21 has been one of the great success 
stories in the history of the American infrastructure spending. 
TEA 21 restored fundamental fairness to the taxpayers, while 
creating the highways that our communities depend upon, and 
providing good jobs for the men and women who build them.
    The Administration's proposed cuts in Highway Trust Fund 
disbursements would pose a great loss to our economy, both in 
the number of jobs lost and in the number of lives lost on 
roads and highways that need modernization.
    This cut in HTF funds is especially unwelcome because of 
the diversion of the RABA funds in the last Transportation 
Appropriation Bill. While Idaho gained more than it lost, and 
mostly due to the tireless work of Senator Larry Craig of 
Idaho, our Nation's highway program is much better served by 
adhering to the TEA 21 formula as it was set forth.
    I look forward to working with you, Mr. Chairman, and also 
Chairman Young, in putting those funds and keeping the RABA 
funds in tact, and keeping our highway programs moving forward.
    I am proud to be an original co-sponsor of the Highway 
Trust Funds Restoration Act, and look forward to its 
expeditious passage by the House.
    Our Nation's highway building is also being hit by delays 
in the permitting process by bureaucracy run amuck. TEA 21 
mandated that the Administration develop ways to expedite 
highway projects. Unfortunately, the prior Administration 
failed to comply with the spirit of the law, bringing much 
greater expense to the highways that we are now trying to 
build.
    I believe that it is possible to expedite the highway 
projects and reduce cost, while maintaining the letter and the 
spirit of the law, including our existing environmental laws. 
We need a real streamlining bill passed into law, and we need 
that as soon as possible.
    In prior testimony before this committee last year, Mr. 
Chairman, it was stated that there are some $14 billion today 
in highway projects that are being held up as a result of 
delays in the bureaucratic mess.
    One of the best programs in TEA 21 is the Intelligence 
Transportation System Program. I am proud to be a member of the 
Intelligence Transportation Caucus, chaired by my fellow 
freshman, Mike Rogers of Michigan.
    The ITS program funds research and deployment of 
intelligent transportation systems to communities to ease 
congestion and save lives. The University of Idaho and Moscow 
and one of TEA 21's university transportation centers has 
demonstrated a special skill with these programs.
    Moscow is located along Highway 95, which I might had, has 
682 miles of the 26,000 mile Pan American Highway so designated 
in 1939, which run through Idaho.
    The University of Idaho and Moscow has demonstrated its 
ability to provide for safety and for fundamentally increasing 
the ability of our highway system to handle its needs. Moscow 
is located along Highway 95, the only north/south corridor for 
NAFTA trade.
    Highways in America are very important. To be playing games 
with the appropriation process now and denying what has 
fundamentally been promised is simply not holding faith with 
TEA 21.
    ITS programs that will save lives and money in Moscow, and 
will serve as an example to the rest of the country. I am 
pleased that the project did receive a $1 million earmark in 
the last Appropriations Bill, and I will support any additional 
requests.
    I have here quite a bit of information, and I would submit 
it to the Federal Highway Administrator and her staff for their 
review.
    Thank you, Mr. Chairman. I appreciate and look forward to 
the testimony we are going to receive today.
    Mr. Petri. Thank you. That is a strong statement to follow.
    Let us see, Mr. Cummings?
    Mr. Cummings. Thank you very much, Mr. Chairman. I want to 
thank you and the Ranking Member for this hearing this morning.
    The other night, Mr. Chairman, when the President gave the 
State of the Union address, he said the key to stimulating our 
economy is, and then he paused, and said the word, ``jobs.''
    For our State of Maryland, TEA 21 is extremely important, 
for it brings jobs, but it does something else. While I think 
everybody in this room agrees that we have to address the whole 
issue of terrorism, and certainly the war effort, but we also 
realize that we have got to keep this country in tact while we 
are doing it.
    The fact is that TEA 21 is a piece of legislation, or a 
reauthorization thereof, is something that will help our 
economy stay in tact.
    So Mr. Chairman, I welcome this opportunity to hear from 
our experts. I want to thank them for being here today. There 
is nobody better than those people who administer the 
provisions of TEA 21 to give us the testimony and let us know 
what is working and what is not.
    All of us agree that we want out constituents' tax dollars 
to be spent in an effective an efficient manner, and we will 
make sure that that happens. At the same time, we want to make 
sure that those highways are in tact, and that our people are 
safe.
    Thank you very much.
    Mr. Petri. Thank you.
    Are there other opening statements? Ms. Tauscher?
    Mrs. Tauscher. I will just be very brief, Mr. Chairman. I 
am anxious to hear from the panel. But I do want to continue to 
register my concern regarding the Administration's highway 
budget, and what my colleagues have already mentioned about the 
negative RABA situation facing our states.
    Under the current budget, my home State of California would 
be hit hardest, losing $118 million in highway funding next 
year, which translates into about 26,000 jobs.
    This is unacceptable, especially during a recession, when 
California families are spending more time sitting in traffic 
than with each other at the dinner table.
    I want to thank the bipartisan leadership of this committee 
for committing to fix much of this problem through legislation, 
that I hope will be welcomed with open arms by the President.
    I look forward to working with Administrator Peters and the 
Administration to ensure that highway problems in California 
and around the country are not interrupted.
    Finally, I just want to mention that my colleague, Mike 
Rogers of Michigan, and I are putting together a Congressional 
caucus on intelligent transportation systems that I hope will 
be useful to members as we start the reauthorization process.
    ITS technologies are one of TEA 21's success stories, and 
we hope to work with Administrator Peters and this committee to 
highlight the many uses of ITS technologies.
    Thanks, Mr. Chairman and Ranking Member, for holding the 
hearing. I yield back.
    Mr. Petri. Thank you.
    We will try to accommodate members who have opening 
statements before we go to vote. If you could make them as 
brief as possible, then we would immediately come back and hear 
from the panel.
    Mr. Mascara?
    Mr. Mascara. Thank you, Mr. Chairman, and I will be brief.
    First, I commend you and the Ranking Member for holding 
these hearings. We certainly welcome the witnesses and are 
anxious to hear their testimony, but I would just like to make 
a couple points.
    One, it has been editorialized, and you should know this, 
that Frank Mascara, who is a former County Commissioner and now 
a Member of Congress, will build the road to any place. I will 
tell you why; because studies around the world have shown a 
strong correlation with investments in infrastructure and 
highways and transit, and sustained economic growth. It does 
not take a genius to figure that out.
    I would imagine that Mr. Borski, our Ranking Member on this 
subcommittee, has said this. But since I came in a little late, 
just to repeat it, to Pennsylvania, what it means, absconding 
with this money, you know, there is no sacrosanct place for 
transportation funding. They have been trying to get at it for 
years.
    But that money was paid by the people of this Nation, and 
it should be invested in infrastructure. There were 14,500 jobs 
lost, good jobs, $35,000 a year, for these employees; $5 
million lost in payroll in Pennsylvania; $150 million lost in 
tax revenue; $335 million in payouts of unemployment 
compensation; and $185 million lost to the Pennsylvania 
economy.
    So leave this money alone. It was paid by the people to 
build the infrastructure in this country and to create jobs. 
Thank you, Mr. Chairman.
    Mr. Petri. Thank you.
    Representative Berkley?
    Ms. Berkley. Thank you, Mr. Chairman and Ranking Member 
Borski. I, too, will attempt to be brief, although this is such 
an important issue.
    The population of Nevada grew by 70 percent in the 1990's. 
In addition to that, we have approximately 36 million visitors 
to the Las Vegas Valley every year. Nevada is the fastest 
growing State in the country. Arizona ranks second in 
population growth, but is far below Nevada, with approximately 
a 40 percent increase.
    As our population increases, our transportation systems 
become more stressed, and our transportation improvement needs 
increase. Congestion on our highways is chronic and a growing 
problem.
    Nevada's transportation officials have, throughout the last 
decade, diligently worked to address increased congestion and 
air pollution by improving and expanding roadways and mass 
transit options.
    Currently, the Regional Transportation Commission of 
Southern Nevada and the Nevada Department of Transportation 
have embarked on many essential projects to alleviate some of 
the burden on Southern Nevada's transportation systems.
    In Clark County, and you are well aware of this, 
construction continues on a beltway skirting the Las Vegas 
Valley to ease traffic on I-15, the city's most heavily 
traveled artery. In addition, I-15 and U.S. 95 are undergoing 
major and critical improvement projects.
    Later this year, Las Vegas area travelers will see smart 
signs on the Las Vegas roads as part of an overall intelligent 
transportation system of Clark County.
    Over the next decade, Las Vegas area residents and visitors 
will have an opportunity to utilize a variety of new 
transportation options. By 2003, a bus rapid transit system 
with low floored, clean diesel/electric powered vehicles will 
be up and running in the areas most utilized bus route. A 
monorail is being constructed, connecting resort properties on 
the strip to downtown properties, to help reduce pedestrian and 
vehicular traffic on the Las Vegas Boulevard.
    I look forward to working with the members of the panel and 
my own colleagues on the reauthorization. I would ask that we 
assess the transportation needs of all of our states and 
evaluate possible avenues to address needs unique to high 
growth states like the State of Nevada.
    Thank you, Mr. Chairman, and I also am looking forward to 
hearing your testimony and working on this together.
    Mr. Petri. Thank you.
    Mr. Pascrell?
    Mr. Pascrell. Yes, I want to thank the Administration for 
reinforcing our unity on this community. They could not have 
done a better job. That is number one.
    Number two, we are working out of an economic 
straightjacket. You know, every election has a consequence and 
every budget has a consequence.
    Number three, we are talking, Mr. Chairman, about 
intermodal transportation. If you stop one project, you are 
impacting upon other projects which are critical. That is what 
TEA 21 and that is what ISTEA were all about. Fourth, billions 
are going to be lost every year because of congestion and 
accidents to the Nation's efficiency. Finally, 8,000 jobs in 
New Jersey, what kind of an economic stimulant is that?
    So I lay out the case, Mr. Chairman. We have our work cut 
out for us. I want to commend you and the Ranking Member for 
bringing us to this point united.
    Mr. Petri. Thank you.
    Are there other opening statements? Mr. McGovern?
    Mr. McGovern. Thank you, Mr. Chairman.
    You may be thinking that everything has been said, but not 
everybody has said it. I just want to add my voice to the 
bipartisan concerns that have been raised here about the 
Administration's proposed budget cuts.
    I am not going to go into a lot of detail about how they 
will affect Massachusetts. I have talked to you, Administrative 
Peters, about that. You know our special needs and unique 
challenges up there. But clearly, the status quo would be 
devastating to us in a whole bunch of ways.
    We need to figure out a way to reverse what is in this 
budget at this particular point. I look forward to your 
testimony, and I thank you very much for all being here today.
    Mr. Petri. Thank you.
    Representative Johnson?
    Ms. Eddie Bernice Johnson of Texas. Thank you very much. I 
ask unanimous consent to put my entire statement in the record.
    Mr. Petri. Without objection.
    Ms. Eddie Bernice Johnson of Texas. But I simply want to 
thank you for calling the hearing, and thank the witnesses for 
being her, and to say that if this goes through, Texas stands 
to lose 22,000 jobs, and we have already run out of 
unemployment compensation money.
    It is so critical that we move forward. As a matter of 
fact, I thought all along that this should be the stimulus 
package, because it creates so many jobs when you work on 
transportation issues.
    I am hoping that the interpretation of TEA 21 will be seen 
as the floor, as outlined, rather than the ceiling; and that we 
can go back and recapture what we began. Because if we go back 
as far as what the Administration has proposed, we will 
actually lose investment dollars for projects that perhaps have 
been started and cannot be finished.
    Thank you, Mr. Chairman.
    Mr. Petri. Thank you.
    The subcommittee will recess for the vote on the Floor. I 
assume there is just one vote. If that is the case, we will 
back and start up at quarter to the hour.
    [Recess.]
    Mr. Petri. The subcommittee will resume.
    Today's panel consists of the Honorable Mary E. Peters, the 
Administrator of the Federal Highway Administration; Honorable 
Jennifer Dorn, the Administrator of the Federal Transit 
Administration; Dr. Jeff Runge, Administrator of the National 
Highway Traffic Safety Administration; and Joe Clapp, the 
Administrator of the Federal Motor Carrier Safety 
Administration.
    Welcome, and we will begin with Ms. Peters.

   STATEMENTS OF HON. MARY E. PETERS, ADMINISTRATOR, FEDERAL 
 HIGHWAY ADMINISTRATION; HON. JENNIFER L. DORN, ADMINISTRATOR, 
    FEDERAL TRANSIT ADMINISTRATION; HON. JEFFREY W. RUNGE, 
ADMINISTRATOR, NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION; 
AND HON. JOSEPH M. CLAPP, ADMINISTRATOR, FEDERAL MOTOR CARRIER 
                     SAFETY ADMINISTRATION

    Ms. Peters. Mr. Chairman, I also want to take the 
opportunity to thank you and the Ranking Member for holding 
these hearings. Clearly, reauthorization is very important to 
us, and it will be here before you know it. So your hearings 
are very timely and very important.
    Mr. Petri. I forgot to mention, your full statements will 
be a part of the record. We encourage you to summarize them in 
about five minutes, and we thank you. Please proceed.
    Ms. Peters. Thank you, sir.
    We all recognize the importance of reauthorization in terms 
of our Nation's surface transportation program. I am pleased to 
have the opportunity to testify before you today for the first 
time as Administrator of the Federal Highway Administration.
    It is also an honor to be here today with my colleagues, 
the Administrators of the National Highway Traffic Safety 
Administration, the Federal Transit Administration, the Federal 
Motor Carrier Safety Administration, and we are pleased to have 
the opportunity to talk with you. With your permission, as you 
said, we will submit our full comments for the record.
    I know that I speak for each of my colleagues this morning 
in saying that we are grateful for the leadership that this 
committee has provided in the area of surface transportation. 
We certainly look forward to working with you over the next 
year to build on the programmatic successes of ISTEA, and the 
financial incentives of TEA 21, to meet the transportation 
challenges now facing our Nation.
    I would like to take a few moments to provide an overview 
of surface transportation improvements accomplished under TEA 
21 and, in particular, highlight highway accomplishments. My 
colleagues will report on achievements within their respective 
areas of responsibility, as well.
    In five principal areas, TEA 21 has strengthened the 
Nation's transportation system: funding levels and program 
equity; safety; mobility and system upgrading; new 
technologies; and quality of life.
    TEA 21 dramatically altered the nature of transportation 
funding, authorizing record amounts of funding, building 
confidence with the firewalls, ensuring fair distribution with 
the minimum guarantee, and augmenting resources with innovative 
loan and grant programs.
    Equally important is funding flexibility. Flexible funding 
has allowed states and communities to tailor their 
transportation resources to meet their unique needs. From my 
years of experience as a State highway administrator, I know 
these mechanisms allowed us to significantly accelerate 
programs that were tailored to our specific needs.
    One funding provision that is foremost in all of our minds 
this morning is the adjustment for the Highway Trust Fund 
revenues, or the revenue aligned budget authority.
    It is important for me to note that this adjustment is not 
a policy call on behalf of the Administration. It is a budget 
calculation that was called for in law. Unfortunately, due to 
the recent economic slow-down and current projections of future 
Highway Trust Fund receipts, as we know, that adjustment will 
be negative in 2003.
    As we discuss the reauthorization of TEA 21, we need to 
look for ways to smooth out the degree of positive and negative 
swings in funding adjustments that have resulted under the 
current formula.
    Nevertheless, even with the 2003 negative calculation, over 
the life of TEA 21, the RABA adjustments will have provided a 
net gain of over $4.6 billion in highway spending. So while we 
need to look for mechanisms to smooth out the flows, the 
overall RABA has been a positive mechanism.
    TEA 21 gave us the funding and flexibility to significantly 
improve our surface transportation system, and to address the 
most important challenge that several of you mentioned this 
morning, that of safety. We still lose far too many lives; as 
was indicated, more than 40,000 per year on the Nation's 
highways, as well as more than three million injuries annually.
    Infrastructure safety improvements enabled by TEA 21 have 
allowed us to make improvements, but clearly, much remains to 
be done in this area.
    The reauthorization process furnishes the opportunity to 
enhance the security of the system, while addressing core 
national goals of mobility, congestion relief and, of course, 
economic growth.
    TEA 21 funding also has allowed us to enhance mobility by 
upgrading the condition of our highways and our transit 
systems, and by improving connectivity across the modes. We 
have seen a steady improvement in pavement condition and a 
reduction in the number of deficient bridges on our system.
    Building on the intermodalism of ISTEA and TEA 21, we 
established and funded new programs, such as the Corridors and 
Borders Program, and these have improved intermodal 
connectivity, especially for freight movement.
    Under TEA 21, the Department of Transportation has made 
great strides in research, especially in the areas of 
Intelligent Transportation Systems, in pavement improvement, 
congestion reduction, seismic hardening of highway 
infrastructure elements, strengthening of bridges, and new 
tunnel technologies.
    Significant progress has been made in ITS deployment. 
However, to date, only 22 percent of freeways in major 
metropolitan areas are instrumented for real time monitoring. 
To better address congestion, security and, of course, 
emergency response, we need to complete the deployment of ITS 
infrastructure in both rural and urban areas of our country.
    TEA 21 has given states and communities additional tools 
and opportunities to enhance the environment and the quality of 
life for their residents as well, including important programs 
like the Transportation and Community and System Preservation 
Pilot Program, the CMAQ Program, and the very popular National 
Scenic Byways Program.
    TEA 21 also directed us to streamline the environmental 
review processes. I believe very strongly that we can improve 
our processes and make them more efficient and less 
duplicative, while still being mindful stewards of our 
environment.
    I am happy to report that the median time it takes to do an 
EIS, or an Environmental Impact Statement, and get to a record 
of decision has been cut by an entire year. But, while this is 
progress, again, much, much more needs to be done in the area 
of environmental streamlining.
    The Secretary has defined a set of core principles and 
goals to frame the Department's approach to TEA 21 
reauthorization. Some of these include things that I heard you 
speak about this morning: building on the intermodal approaches 
of ISTEA and TEA 21; assuring adequate and predictable funding 
that will allow State agencies to confidently develop long-
range plans; preserve funding flexibility; expand innovative 
financing programs and look for new ways to augment revenues; 
make substantial improvements in the safety of the Nation's 
surface transportation system; enhancing the security of the 
system and improving incident response; improving freight 
movement and intermodal connections; and working to simplify 
and accelerate project approval and implementation. Working 
together, we can continue to improve surface transportation 
programs for our Nation.
    Mr. Chairman and members, the Department of Transportation 
looks forward to working with both Houses of Congress, with 
State and local officials, tribal governments, and many other 
stakeholders on the reauthorization of surface transportation 
programs. A viable transportation system supports a strong 
America.
    Mr. Chairman, thank you for the opportunity to testify 
before you today. I would be pleased to answer any questions 
that you have, following the statements of my colleagues.
    Mr. Petri. Thank you.
    Administrator Dorn?
    Ms. Dorn. Thank you, Mr. Chairman. It is a pleasure to be 
with you again today on this very important topic.
    In recent years, transit has experienced the highest 
percentage of ridership growth among all surface transportation 
modes. In the year 2000, transit ridership reached its high 
level in 40 years. Traveling to and from work, medical 
appointments, school, and social events, people rode our 
Nation's transit systems 9.4 billion times, 320 million more 
than the previous year.
    Nonetheless, we face new challenges in 2002 and beyond. 
soon after September 11th, the Federal Transit Administration 
launched a major security initiative, working with transit 
agencies across this Nation, to enhance transit security.
    In December, FTA began deploying expert security assessment 
teams to the 30 largest transit agencies in the Nation, using 
proven threat and vulnerability assessment methodologies. These 
professional teams are helping transit agencies identify 
security gaps and make specific recommendations to reduce the 
risks.
    I am particularly pleased to report that transit agencies 
are voluntarily and enthusiastically partnering with the FTA, 
and continue to take steps on their own to improve the safety 
and security of our public transportation systems.
    I am equally pleased to note that we are working across the 
modes at the Department of Transportation, to ensure that our 
efforts to enhance security are coordinated and complimentary.
    FTA has been partnering with the Federal Railroad 
Administration to ensure that commuter rail systems are covered 
by our security assessments; with the Federal Motor Carrier 
Administration on bus safety and security training for drivers; 
with the Federal Highway Administration on the ITS Deployment 
Program and regional security workshops.
    Mr. Chairman, from major urban centers to small 
communities, TEA 21 has communicated a revolution of sorts in 
public transportation, leading to increased mobility, more 
transportation choices, and more economically vital communities 
for millions of Americans.
    Although Federal funding represented only 17 percent of the 
Nation's total investment in transit in the year 2000, reliable 
TEA 21 funding streams for both formula funds and new starts 
capital investment programs have had a tremendously positive 
impact on transit development.
    They have improved the ability of communities to finance, 
to plan, and execute public transportation projects, and have 
generated financial and mobility benefits throughout the 
Nation.
    For example, based on the reliable Federal formula funds 
provided under TEA 21, Phoenix Transit, a small public 
transportation agency successfully worked with the city to 
secure grant anticipation bonds. As a result, Phoenix Transit 
was able to upgrade its entire fleet to clean natural gas 
vehicles, and install the necessary fueling infrastructure 
within a single year, saving three years and an average of 
$30,000 per bus, a total of $1.65 million.
    Similarly, based largely on the Federal commitment, under 
their new starts full funding grant agreement, New Jersey 
Transit was able to issue $450 million in grant anticipation 
bonds, to fund the Hudson Bergen Light Rail Project.
    The assurance of this reliable Federal funding source is 
permitting the project to be completed three years early, and 
will reduce costs by more than $300 million.
    Today, there are 27 active and pending new starts with full 
funding grant agreements and seven more projects recommended 
for fiscal year 2003 funding in the President's budget. In 
addition, there are 50 more transit projects in the new starts 
pipeline, in preliminary engineering or final design, and many, 
many more in early planning stages throughout the Nation.
    In communities of all sizes, from over five million in 
population to less than 500,000, these projects span all types 
of public transportation service, from ferry boats to commuter 
rail to light rail to bus rapid transit.
    It is, therefore, more important than ever that we provide 
stable resources, opportunities to partner with the private 
sector, and innovative financing tools that will permit 
communities to leverage the Federal investment in public 
transportation and respond to local needs for public 
transportation service.
    We have learned that real success comes when public 
transportation is given the opportunity to work with State and 
with local officials to envision, plan, and develop 
economically vital communities.
    Public transportation is the key to connecting communities, 
ensuring that every American has access to the employment 
opportunities, services, and recreational facilities in the 
community, and helping businesses gain access to and attract 
customers and employees.
    Mr. Chairman, thank you for the opportunity to testify 
before you today. I look forward to working with you and the 
subcommittee to keep our communities safe and moving.
    Thank you very much.
    Mr. Petri. Thank you
    Mr. Runge. Thank you, Mr. Chairman. I appreciate the 
opportunity to give you a brief update on highway safety, since 
the enactment of TEA 21, and a few of the issues that are 
facing the program today.
    Congress gave us a prime goal to save lives and to prevent 
injuries on the Nation's highways. NHTSA has pursued this goal 
for more than 30 years since its inception and has accomplished 
a great deal.
    The rate of fatal injury is at an all time low of 1.5 
deaths per 100 million vehicle miles traveled, compared with 
5.5 in 1966, when Congress enacted the law. The serious injury 
rates have also fallen.
    In TEA 21, Congress recognized that further reductions 
would require more resources. Accordingly, the Act gave us a 
tool kit of programs, some new and some renewed, to help 
prevent crashes and mitigate their effects. Unfortunately, 
although the rates have improved, as Mr. Borski pointed out 
earlier, the numbers of Americans dying on our highways each 
year is wholly unacceptable.
    The solution to the problem lies both in preventing crashes 
and mitigating injuries when crashes do occur. To prevent 
crashes from occurring, we focus primarily on human factors and 
environmental conditions; the most important of which is 
reducing alcohol-related crashes.
    By encouraging sound public policy, enhancing law 
enforcement, and improving public education, we have brought 
the rate down. Sadly, however, alcohol is still a factor in 40 
percent of fatal crashes, and over 16,600 Americans die each 
year in alcohol-related crashes.
    TEA 21 provided a set of programs to address the impaired 
driving problem, including incentive grants to States for 
enacting laws to reduce the level of alcohol with which it is 
legal to drive. NHTSA continues to work intensely with the 
states to implement these safety improvements.
    To mitigate the effects of crashes when they do occur, the 
most effective tools we have are seat belts and child 
restraints. We know from long experience that seat belts reduce 
the chance of fatal injury by half, and that properly secured 
child restraints are essential to keep our children safe.
    TEA 21 provided a welcome set of incentive programs to 
increase the use of seat belts and child restraints. As a 
result of our efforts and those of our partners in the private 
sector, the national seat belt use rate is now 73 percent, up 
from 65 percent in 1998. Several states are over 80 percent, 
and two states are now at or near 90 percent.
    But the improvement in child restraint use is a real 
success. The rate for infants is 95 percent, and for children 
one to four, it is 91 percent. While this is a tremendous 
improvement, traffic crashes are still the leading cause of 
death for children over three years old in our Nation. Over 
half of children who die in those crashes are totally 
unrestrained, and that is unacceptable.
    In the adult population, people are still being killed by 
the thousands, due simply to their failure to buckle their seat 
belts and tens of thousands are seriously injured.
    The vast resources spent in this country for safety 
improvements to vehicles are all for naught, if people do not 
wear their seat belts, and this is a tragic waste and a tragic 
economic waste for America.
    In the current fiscal year, we are using the flexibility 
provided by the innovative seat belt incentive program in 
Section 157 to focus on programs that combine intense seat belt 
enforcement with high public visibility through the use of 
strong media campaigns.
    Last year, we worked with eight states in the Southeast in 
this intensive effort, and that achieved a nine percentage 
point increase in seat belt use across that region. This year, 
we are expanding the effort to 12 other states across the 
country. Our data so far shows that this approach offers the 
best hope of raising seat belt use levels across America.
    The programs authorized under TEA 21 have made America 
safer for its citizens. We will build on TEA 21 as we look 
towards the reauthorization of our safety programs, and we 
appreciate your time. Mr. Chairman, this concludes my 
statement.
    Mr. Petri. Thank you.
    Administrator Clapp?
    Mr. Clapp. Thank you, Mr. Chairman. I want to express my 
appreciation for Mr. Oberstar's characterization of our panel 
as being all star. I associate myself with that remark.
    However, my wife probably would not hire whoever did the 
seating arrangements for our next dinner party, because we like 
to do ``boy/girl, boy/girl.'' And while I like Jeff a lot, I 
would prefer to sit between Mary and Jenny, almost any day.
    [Laughter.]
    Mr. Clapp. Mr. Chairman and members of the committee, thank 
you for the opportunity to speak today on the progress being 
made to improve truck and bus safety under TEA 21 and the Motor 
Carrier Safety Improvement Act of 1999.
    In 2000, fatalities and large truck crashes declined by 
three percent from the previous year, despite an increase in 
overall highway fatalities. This committee is to be commended 
for its role in this achievement through its commitment to 
strong State and Federal motor carrier safety programs.
    Since 1998, states have received more than $400 million 
under the Motor Carrier Safety Assistance Program. With the 
flexibility provided by TEA 21, states focused their efforts on 
the particular safety risks they see in their states. This has 
led to many successful safety initiatives.
    Under TEA 21, participation in the innovative PRISM Program 
has grown from five to twenty states. Since 1998, more than $15 
million in grants have been awarded to states to improve 
commercial drivers license programs, and $15 million more will 
be distributed this year.
    By closing loopholes that can lead to fraud and increasing 
the exchange of licensing and violation information, we can 
improve both safety and security.
    FMCSA is taking active steps to help motor carriers reduce 
the vulnerability of commercial motor vehicles to terrorist 
attack. Across the country, our investigators conducted more 
than 36,000 visits to hazardous material carriers, alerting 
them to potential risks, and making recommendations to tighten 
security.
    We are also working with commercial passenger carriers to 
identify further ways to reduce the vulnerability of inter city 
motor coaches, a vital part of our national passenger 
transportation system.
    While we are taking action to reduce vulnerabilities, we 
are maintaining our focus on our commercial vehicle safety 
mission. This committee can be assured that I will continue 
strong enforcement of the safety rules, and strive for 
continuous improvement in our safety programs.
    We will soon issue rules for background checks on hazardous 
materials drivers, commercial driver licensing, new entrants, a 
unified carrier register, and for Mexican-domiciled motor 
carriers. Work on the important Hours of Service Rule is also 
moving ahead.
    A wide range of actions are under way to ensure there is no 
compromise to motor carrier safety, as the Administration 
maintains its commitment to the North American Free Trade 
Agreement. In reauthorization of TEA 21, one of the 
Department's core values will be making further improvements in 
safety on our highways.
    I really look forward to working closely with this 
subcommittee on an initiatives that will continue our progress 
in motor carrier safety.
    Thank you.
    Mr. Petri. Thank you. Thank you all for your statements.
    Mr. Borski?
    Mr. Borski. Thank you, Mr. Chairman.
    Administrator Peters, let me start with you, if I may. We 
are obviously very concerned about RABA, and I think you are, 
as well. Obviously, the members on both sides of the aisle here 
have expressed a strong desire to see that this is corrected.
    I see this problem as only getting worse in the future. As 
we use more ethanol, and that is probably a good idea, and as 
we look to raise CAFE standards, which I think is a good idea, 
the trust funds will correspondingly get less revenues.
    So that is something I want to get to in a minute or so, 
and would really like your thoughts on that. Perhaps this is a 
good wake-up call to all of us who are concerned with this 
issue, to think this through in the long term.
    In the near term, for this budget that was put through, it 
is my understanding that there was an additional $3 billion in 
TEA 21 for this year that the President could have recommended 
that we use, and that the appropriators put that $3 billion to 
use in the Highway Trust Fund. Why was that not done?
    Ms. Peters. Mr. Chairman, Congressman Borski, in terms of 
the additional $3 billion, to my knowledge, that is not 
accurate. I certainly will go back and check, but we looked 
very hard.
    When we received the third quarter numbers and looked at 
what the negative impact was going to be on RABA, we were very 
disappointed in that. We looked at a number of methods to try 
to not have that happen. I am aware of no $3 billion, but we 
will certainly look into that.
    Mr. Borski. I would appreciate you looking into that, 
because I understand that is in the law that we said you could 
do that; and particularly, when we hit this kind of a 
situation, that there was $15 billion that was in TEA 21 that 
could be used for highway spending, in my view.
    If you are correct, and you think only the law can be 
changed to correct this situation, and we are going to work 
hard to see that that is done, why did the President not 
recommend changes in the law, when he presented his budget?
    Ms. Peters. Mr. Chairman, Congressman Borski, certainly, I 
cannot speak for the President of the United States.
    However, in our discussions with the Office of Management 
and Budget, the issue was following the law. They felt that in 
terms of putting our budget out, it was important to follow the 
law as it was written, and then engage with Members of 
Congress, should there be alternative thoughts about doing 
that. There was, of course, concern about the deficit issue, as 
well.
    Mr. Borski. All right, let us get back to my earlier point, 
then. We do have some long-term problems here with the Trust 
Fund. It is a program that obviously works very well. I know 
from your experience, you are a supporter of firewalls and 
spending in the Highway Trust Fund, Transportation Trust Fund, 
all on transportation issues.
    But we do have a looming problem here. Perhaps some of it 
is caused by the recession, and some is caused by increased use 
in ethanol now. If that situation continues to get worse, what 
alternatives will we have to maintain the spending that we need 
to repair and maintain the highways of our country?
    Ms. Peters. Mr. Chairman, Congressman Borski, I think you 
are very insightful in your focusing on this issue. I think 
also, as you said, perhaps as bad as this news is this year, it 
can serve as a wake-up call for us.
    The predominant factors that affected the negative RABA in 
this cycle were two. One was the sale of commercial trucks, new 
trucks, which was down 45-plus percent. That perhaps can be 
looked at as a point in time issue, rather than a point over 
time issue, and certainly additional analysis is continuing on 
that.
    But the other factor was, we saw a 28-plus percent increase 
in the use of ethanol and a corresponding decrease in the use 
of gasoline. Because ethanol does not contribute to the Highway 
Trust Fund at the same rate as gasoline, certainly that was a 
more negative effect.
    As you say, I think that is a trend indicator that we need 
to look hard at in the go-forward position, because states such 
as California have passed laws regarding MBTE's, and this will 
continue in other states. In my home state, we had to use 
oxygenated fuels half the year.
    These will continue as we deal with a number of issues 
throughout the Nation. I think, again, you are very perceptive 
in suggesting that we look hard at this as we go forward, and 
perhaps within reauthorization, even to find mechanisms for re-
examining the whole highway funding structure, as we approach 
the next authorization cycle.
    Mr. Borski. OK, thank you, and we look forward to working 
with you. Again, I think this committee you will find, and I 
think you know, is one that works in a bipartisan fashion. We 
believe that the highway and transit spending is good for the 
Nation, not just for Democrats and Republicans.
    I remember when Administrator Slater was before us, and 
were initiating this fight on TEA 21. We asked for his help, 
and I am sure we got it. We will ask for your help, and I am 
sure we will get it, where you can, to be an advocate for this 
position, within the Administration.
    I know sometimes here, your hands could be tied, and I know 
this is your first visit here. But we do think highly of your 
record. We understand you know this program and know it well, 
and we look forward to your advocacy.
    Thank you, Mr. Chairman.
    Mr. Petri. Thank you.
    Mr. Duncan?
    Mr. Duncan. Thank you very much, Mr. Chairman, for calling 
this important hearing.
    Administrator Peters, I would like to first ask you, just 
prior to TEA 21, we had a delegation of governors sit at your 
same table and testify.
    We had also earlier had a panel of highway administrators, 
who had testified. They said their main problem was all the 
environmental rules and regulation and red tape, and that these 
highway projects were costing, on average, about three times as 
much as they should, and were taking many years longer than 
they should. I think one person said it was an average of about 
10 years for a major highway project, from conception to 
completion.
    I remember we heard the same thing on the Aviation 
Subcommittee. They told us that the main new runway in Atlanta 
was 14 years from conception to completion, but it was only 99 
days of actual construction.
    I am wondering, are you doing anything? That seems to me to 
be a real area of opportunity for major savings. You know, 
lives are lost if these projects are delayed for years past 
when they should have been completed. What are you doing about 
that; or do you see that as an area in which progress can be 
made, so that some of these projects can be speeded up, or at 
least not delayed this long?
    Ms. Peters. Mr. Chairman, Congressman Duncan, my colleagues 
will think I asked you to ask that question, because it is a 
very important question.
    Mr. Duncan. But you did not ask me to ask that question.
    Ms. Peters. I did not.
    [Laughter.]
    Ms. Peters. But it is one that I certainly empathize with 
you on. In fact, I had an opportunity to testify before this 
subcommittee in September of 2000, before I achieved this job 
and while I was still a State administrator. You heard from me, 
at that time, some of the same things that you mentioned.
    It is problematic and, as you said, while lives are being 
lost, the economy is being damaged by not being able to move 
forward these projects much more quickly.
    We are aggressively moving forward with methods to 
streamline environmental processes. Administrator Dorn and I, 
because there are so many interrelationships between the 
processes in the Federal Transit and the Federal Highway 
Administration, have spent much time talking about this.
    We have some efforts that are underway already, in terms of 
dispute resolution, so that when there is an issue with an 
environmental resource agency and a transportation agency, we 
can get in and try to get that resolved very quickly.
    We believe that we can delegate more authority to our State 
partners and our local partners to do some of the lower level 
environmental processes. We believe that we can concurrently 
process a lot of documents, as opposed to sequentially 
processing them.
    It is a subject that was so important to me that I, in 
fact, spoke to Secretary Mineta about it when I was interviewed 
for this position, and we must do something about it.
    Mr. Duncan. Good, well, I tell you, people do not think 
about this, but when you make things, Government projects cost 
three or four times what they should. Who you are hurting is 
the poor and the lower income and the working people of this 
country. That is who gets hurt most of all.
    Administrator Dorn, let me ask you this. I am told that in 
the budget in brief, there is a new program proposed by your 
agency called the New Freedom Program, and $145 million is 
being requested to be authorized for that. Can you tell us what 
that program is?
    Ms. Dorn. Yes, sir, I am very enthusiastic about this 
program, because it will address some very problematic issues 
for those in the disability community, who are seeking access 
to the work place. There are a number of things, creative kind 
of opportunities, that some agencies have already taken 
advantage of, but it is not a systematic approach.
    As you may well be aware, we have 54 million people across 
the country who have mental or physical disabilities. Seventy 
percent of those have a concern about the part about getting to 
a job. So we want to make that easier, so they can become a 
more productive part of society.
    It is a two-part program. One piece of it is a competitive 
grants program, which would be formula based, and then another 
piece would be using innovative sorts of practices.
    We are very eager to put this into place and to utilize 
existing creative methods that we have used in other programs 
that have been very successful, that encourage cooperation and 
collaboration at the community level. So we look forward to 
implementing that program, should the Congress approve it.
    Mr. Duncan. I just was wondering what that was. I have got 
several more questions, but let me just ask one quick question 
here. I do not know who wants to answer it.
    But just prior to TEA 21, we were told that while the 
population had increased so much, and I remember in Tennessee 
where I am from, they said the population had increased since 
1990 by 11 percent; but the vehicle miles traveled had gone up 
by 55 percent. That was pretty typical across the Nation, that 
the vehicle miles traveled in the decade of the 1990's had gone 
up at about five times the rate of the population.
    Are we still seeing those increases over these last two or 
three years? Can anybody tell me, is the number of vehicle 
miles traveled continuing to explode?
    Ms. Peters. Mr. Chairman, Congressman Duncan, yes, we are 
continuing to see increases in vehicle miles traveled overall. 
However, last year, we saw a more modest increase. We saw an 
increase of just less than one percent. There are some other 
factors that could have affected that in the past year.
    In fact, that is one of the issues that we look at in terms 
of the calculation of RABA. It was a more modest increase, but 
we are still seeing vehicle miles traveled increase, yes.
    Mr. Duncan. All right, thank you very much, Mr. Chairman.
    Mr. Petri. Thank you.
    Mr. Mascara?
    Mr. Mascara. Yes, Mr. Chairman, thank you.
    In my former life, I was an accountant. I still have my 
license, but I do not practice, thank God, given the Enron 
situation.
    I am just curious as to the calculations that were made 
regarding current and future revenues from gasoline taxes. Who 
made that estimate or calculation, Treasury?
    Ms. Peters. Mr. Chairman, Congressman Mascara, yes, the 
Treasury Department makes those calculations.
    Mr. Mascara. And currently, there is some suggestion that 
would like to see the GAO look over the shoulder of Treasury, 
to make sure that those estimates are accurate.
    I would also like to admit my ignorance on the ethanol. Are 
you saying there are less taxes? What is it, 18-what per gallon 
currently in Federal taxes? What is it on ethanol?
    Ms. Peters. Mr. Chairman, Congressman Mascara, let me make 
sure I get that number right, rather than me flipping through 
the book.
    Sir, I am told it varies by the rate of alcohol that is in 
the ethanol. But it contributes substantially less to the 
Highway Trust Fund than does gasoline.
    Mr. Mascara. And currently, it is somewhere about 28 
percent, that you testified to, earlier?
    Ms. Peters. Yes, that was the effect. Mr. Chairman, 
Congressman Mascara, that was the effect on the forecast for 
the current year.
    Mr. Mascara. So we are not sure about those figures, yet, 
but you are anticipating that there will be a reduction in the 
amount of revenues going into the Trust Fund, as a result of 
September the 11th, less people traveling, it is wintertime, 
less people traveling.
    Will your proposal include an anticipation of any increases 
and suggested changes in the amount that we are talking about? 
I mean, originally, we were at $9.2 billion, and then we were 
at $8.7 billion, and Treasury apparently over-estimated.
    Will your department or the Treasury Department be in a 
position to anticipate changes in the revenues as they come in, 
and be prepared to report to Congress that we need to take 
another look in the future at any cuts that might be necessary?
    Ms. Peters. Mr. Chairman, Congressman Mascara, I think it 
is important for me to clarify that the RABA calculation is 
both a look back and a look forward. The look back calibrates 
or estimates revenue to what the actual revenue was. In fact, 
that constitutes about 60 percent of the negative figure that 
we are seeing this year. Unfortunately, that was the effect of 
that look back, 60-plus percent of the negative figure.
    It was because, as you indicated earlier, the early 
estimates of what revenue would be were much more optimistic 
than the actual revenue that came in, in the year 2001.
    So that is an issue that we have to look at. As we look at 
the other piece of it, which was the go forward piece, and look 
forward, this is the piece, again, that we have to, as 
Congressman Borski indicated earlier, look at the effect of 
ethanol as a percent of the fuel consumption overall, and 
whether we see that trend line increasing over time.
    What we did see in the look back was a 28 percent increase 
in the use of ethanol, a 28-plus percent increase. Again, what 
we need to collectively look at is, is that a trend that is 
going to continue?
    Under law, Treasury continues to have the responsibility 
for doing those revenue forecasts. They are not done by the 
Department of Transportation. But certainly, we will do 
everything, and any intelligence that we have that would help 
them look at those components of the Highway Trust Fund, we 
will make available to them.
    Mr. Mascara. I apologize for my reluctance to entirely rely 
upon Treasury. It is my understanding that Ranking Member 
Oberstar and Ranking Member Borski of this subcommittee has 
asked the GAO to look over the shoulder of Treasury. Am I 
correct, Congressman Borski?
    Again, given my background in accounting, and to lend a 
little levity to this hearing, you know, figures do not lie, 
but liars figure.
    [Laughter.]
    Mr. Mascara. The other is, to lend a little levity, that in 
hiring an accounting firm to audit their books, the first two 
firms were asked, what two and two was. They said, two and two 
was four. Then they asked the third accounting firm what he 
thought it was, and he said, anything you want it to be.
    [Laughter.]
    Mr. Mascara. So I am a little bit reluctant sometimes to 
accept Treasury.
    But thank you very much, and I appreciate your appearance 
here today.
    Thank you, Mr. Chairman.
    Mr. Petri. Thank you.
    Mr. Bereuter?
    Mr. Bereuter. Thank you very much, Mr. Chairman.
    Administrator Peters, Administrator Runge, you heard or 
perhaps you recall hearing my comments about highway rail grade 
crossing safety programs. I see the paragraph in the joint 
testimony which addresses that: the amount of dollars spent, 
the amount of lives saved.
    My home State is Nebraska. Let me give you a little brief 
lesson in settlement and economic geography. The low sulphur 
coal in Wyoming, that is so much in demand for power plants 
across the center and eastern parts of the country, is nearly 
all channeled right through two routes in my state. In my home 
town, for example, a small community, it will have over 50 coal 
trains a day. These are the large unit trains.
    The settlement patterns is that in the Western Midwest and 
in the Great Plains, the rail lines let the settlement, and the 
local people who came in from the eastern part of the United 
States or as immigrants were told, there will be a community 
here. There will be one here every six or eight miles.
    Literally, they told them, this one will start with ``A.'' 
You pick the name. This one will start with ``B.'' You pick the 
name. Most of those communities are small. Some have grown to 
be sizable communities.
    But inevitably, the school or the fire safety or the 
ambulance will be on one side of the tracks or the other. The 
amount of time that the crossings are blocked each day is 
becoming a major problem. I have some horror stories to tell 
you from my constituents, but there is not time for that.
    Eventually, those routes of taking the coal and other kinds 
of freight will fan out across the aisle of Kansas and other 
places. But right there, there are two corridors, and they have 
got all of it coming through there.
    Now the Department of Roads, with the allocation of Federal 
funds and the State highway tax, simply cannot put the 
overpasses where they need to be placed, under the current 
financial arrangements for dealing with rail grade crossings 
and under the priority system.
    So I would like to ask each of you to what extent you are 
aware of this problem? What kind of solutions or what kind of 
studies are examining additional resources or some changes in 
the priority system?
    Ms. Peters. Thank you, Mr. Chairman and Congressman 
Bereuter. I hope I am pronouncing your name correctly.
    Mr. Bereuter. Bereuter.
    Ms. Peters. Bereuter, thank you; I certainly sympathize 
with your problems. In fact, we lived in mid-north Indiana for 
a number of years, and when I was expecting my third child, the 
hospital was on the other side of the railroad tracks from 
where my home was. That was of some concern to me.
    Mr. Bereuter. I can imagine.
    Ms. Peters. I am going to ask my colleague, Dr. Runge, to 
give you the first response, and then I will follow-up with 
some of the infrastructure issues.
    Mr. Runge. Thank you, Congressman Bereuter. Clearly, this 
is an issue. It is not technically in NHTSA's jurisdiction, but 
it is within the jurisdiction of DOT.
    Administrator Alan Rutter is well aware of this problem. We 
have discussed it. I frankly do not have the numbers on the 
numbers of fatalities. The midwestern states are over-
represented in grade crossing crashes, however.
    But even in North Carolina, where I came from, it was a 
real issue, not only with respect to infrastructure, but with 
respect to driver behavior: getting around crossings, not just 
the unwitting crossing of an unmarked track. So there are a lot 
of issues to be considered.
    Non-construction projects are eligible for 402 funding, 
that states have the discretion to spend. One of the beauties 
of State funding is, they can look at actually what their 
priorities are, and address their priorities. We would support 
any suggestion you might have on how we could improve that.
    Ms. Peters. Mr. Chairman, Congressman, if I could follow up 
a little bit. As Dr. Runge indicated, it is a subject that we 
have talked about. I also have met with Federal Rail 
Administrator Alan Rutter to talk about this, as well. We know 
that we can do a better job of preventing crashes at those at-
grade crossings.
    Other things that we can do though is look at the sign 
placement, the stop point placement. I also have had an 
opportunity recently to talk with a senior official with 
Norfolk Southern Railroad.
    They actually mounted cameras on some of their locomotives, 
and have some real time film of these incidents that will help 
us analyze them and determine better ways to improve them.
    But as you said, sometimes the issue is simply having 
enough money to deal with the crossing. Here again, I think 
funding flexibility is what we need to provide, so that we can 
use that money where it is appropriate to fix those issues.
    Mr. Bereuter. Thank you very much.
    Well, we are closing rail crossings, wherever possible, to 
try to reduce the number. That is never popular, but it has to 
happen. But we still need construction dollars far beyond our 
capacity to fund them. If we met our needs in the state, we 
would not build a single mile of highway.
    So Mr. Chairman and Mr. Borski, I look forward to working 
with the subcommittee, trying to find a solution to this 
problem. Thank you very much.
    Mr. Petri. Thank you.
    Mr. McGovern?
    Mr. McGovern. Thank you, Mr. Chairman.
    First, again, I again want to thank Administrator Peters 
for all the cooperation and help that you have provided me and 
my colleagues in the Massachusetts Delegation during some of 
our challenges up there.
    I just want to change the subjects a little bit here. As 
you know, among the many controversial issues that the 
Department and Congress will confront during the TEA 21 
reauthorization process are questions involving the regulation 
of truck sizes and weights.
    In your previous position as Director of Transportation for 
the State of Arizona, you wrote a letter to members of your 
Congressional Delegation, urging them to oppose proposals to 
increase the size and weight of trucks, and I happen to agree 
with you.
    But can you tell me more about your concerns with bigger 
trucks? Even as the head of a State agency, you thought that 
truck size and weight regulation was one of areas reserved to 
Congress. Can you tell me a little bit more about that?
    And what is the Bush Administration's position on proposals 
to increase truck size and weight, and will you and the 
Department support the continuation of the freeze on triple 
trailer trucks without changes or thaws of any kind?
    Ms. Peters. Mr. Chairman, Congressman McGovern, thank you 
for the question. Let me explain first what my reservations 
were at the time I wrote the letter about that.
    My reservations were in two areas. One was safety, the 
interaction of the commercial vehicle with other vehicular 
traffic. My second reservation was a reservation concerning the 
infrastructure itself and the impact on the infrastructure of 
heavier or longer loads.
    I felt at the time, and continue to feel, that we want to 
carefully evaluate that issue before making changes, to 
determine if those changes are warranted.
    My position in terms of why it was appropriate for Congress 
to act on that issue, sir, was related to the fact that this is 
a factor that affects interstate commerce.
    While I am very much an advocate of states making 
decisions, when it is appropriate to do so, when we are dealing 
with issues of interstate commerce, I felt it was more 
appropriate for Congress to speak to that issue, than it would 
be for individual states to speak to that issue.
    In addition, I felt that it would be very chaotic for the 
trucking industry to have to remember which State allowed 
which. Many of those long haul carriers do not travel 
intrastate--they travel interstate.
    Mr. Petri. Mr. McGovern, if we could just suspend for one 
minute. There are several votes on the Floor. We have made 
arrangements for one of the members to run over and vote and 
return.
    So we will just try to continue, because there will be 
several people who will want to ask questions. We will 
hopefully accommodate them and wrap this up by the lunch hour, 
if at all possible.
    If there are other members who would like to ask questions, 
you could go vote and come right back. We will try to keep the 
hearing going, without the 20 or 30 minute break that we would 
otherwise have.
    Although if there are two votes, he is not going to be able 
to come running right back, is he, until the second vote? Well, 
we will maybe rest for five minutes, but as soon as Mr. Kerns 
comes back, the hearing will be continued.
    [Recess.]
    Mr. Petri. Please go ahead, Ms. Peters.
    Ms. Peters. Thank you, Mr. Chairman, Congressman McGovern. 
To your third issue, the Bush Administration has not yet taken 
a position on this.
    I believe as you are aware, the Federal Highway 
Administration conducted a very extensive study on truck size 
and weight issues. The Transportation Research Board has been 
asked to review that and make recommendations as a result of 
the study. The Federal Highway Administration study, by intent, 
did not make recommendations. It simply collected a lot of 
data.
    The TRB study was initially due in the Summer of 2000. 
Obviously, we do not have it, yet. But I am told that we are 
expecting that very shortly, and we will all collectively have 
an opportunity to comment on that, once it is made public.
    Mr. McGovern. Well, I appreciate that, and you answered my 
second question about the Administration's reaction to this 
study that was done, the Comprehensive Truck Size and Weight 
Study that came out in August of 2001, which I think supported 
the fact that we should not alter the freeze right now.
    I have legislation, that a number of us on this committee 
are also supportive of. I would appreciate your review of that. 
Hopefully, we can get the Administration to be supportive of 
it.
    But I think that given the budgetary issues that we have 
talked about here, and the numerous safety and infrastructure 
concerns that have been addressed and raised with longer and 
heavier trucks, that it would be economically wise for us not 
to change the policy. I hope we can work together on that.
    Ms. Peters. Mr. Chairman, Congressman, we would be happy to 
provide any technical assistance you desire.
    Mr. McGovern. Thank you.
    Mr. Petri. Mr. Kirk?
    Mr. Kirk. Thank you, Mr. Chairman.
    I just want to reiterate and thank Jenna for all the help 
with Metra and transit funding. We made a major commitment in 
Illinois in seeing that through, both not only to my district, 
but the Speaker's district as well.
    I have a concern about having the next Transportation bill 
enable consensus building, especially on highways. In my state, 
we do not have an overarching organization that can bring 
together different agencies and jurisdictions to build 
consensus.
    This is something I have discussed with the Chairman. We 
have an enormous pot of money available. But sometimes when 
communities are divided, there is no mechanism to bring them 
together for common solutions.
    I am wondering, Ms. Peters, what you would think about 
having you being able to convene kind of a Federal entity that 
would bring together, for example, the communities in Northern 
Illinois, basically giving a red light/green light to projects. 
We could say, "If you guys do come together, the Federal 
Government will be able to do certain things for you." We could 
also say, "If you are not, we will look at other states."
    Ms. Peters. Mr. Chairman, Congressman, I think you bring up 
an important issue. In some cases, there are metropolitan 
planning organizations or councils of government that are very 
effective. In other areas, they do not have that.
    The Department has engaged in what we call a capacity 
building program, to go in where local governments or others 
perhaps do not have the capability or the expertise to do long-
range planning and look at what their transportation needs are, 
and how they might match those needs in the best method 
possible to available Federal funding sources.
    Our capacity building program is one that has received a 
lot of accolades where it has gone in. It is a joint program 
with FTA. We think that that type of thing is ideal for the 
situation that you describe.
    I would like to defer to my colleague, if she has anything 
else to add.
    Ms. Dorn. Only to reaffirm your very important point, 
Congressman, that in our experience in Federal Transit 
programs, as well as in the mobility of communities, there is 
nothing more important than that planning at the front end, and 
coordinating, truly intermodal studies.
    I think that that is the thing that the Administrator and I 
want to work together on. We will do anything we can, in terms 
of technical assistance in your State or others, to encourage 
that kind of cooperation.
    Part of it is an issue of political will, and part of it is 
an issue of incentivizing, as you suggest. I think we are 
willing and eager to use whatever appropriate means to make 
that happen, because that is what will leverage the Federal 
dollar and make sure that we have mobility in all of our 
communities, because of that kind of planning.
    Mr. Kirk. I think we save a lot of money, in the long run. 
So we want to help you in the capacity building. Jenna, thank 
you; you are my top priority.
    Thank you, Mr. Chairman.
    Mr. Petri. Thank you.
    Mr. Brown?
    Mr. Brown of South Carolina. Ms. Peters, we are up from 
Charleston, South Carolina. We were very interested when we got 
the news that I-73 was going to be coming from Detroit, I 
guess, to Charleston, by way of Myrtle Beach. I was just 
wondering if you could give us an update of where that is 
taking place?
    Ms. Peters. I am going to consult my notes here. I have a 
few notes on projects in South Carolina, Mr. Chairman and 
Congressman Brown. If I do not have that right with me, I 
apologize. I do not. I would be pleased to get back with you on 
the specifics of that project.
    Mr. Brown of South Carolina. OK, thank you very much.
    Mr. Petri. Thank you.
    There are two votes on the Floor. Mr. Kerns has promised to 
come back as quickly as he can after the second vote. So we 
will suspend for about 10 or 15 minutes. There were several 
other members who had some questions, and we should be able to 
accommodate them and wrap things up by about 12:15 or 12:20.
    The subcommittee will recess for a vote.
    [Recess.]
    Mr. Petri. The committee will resume.
    I discussed this with Mr. Borski. Without objection, the 
record of this hearing will be held open, so members will have 
an opportunity to submit questions for written response from 
our panelists within the next week.
    Mr. Otter?
    Mr. Otter. Thank you, Mr. Chairman.
    Mr. Chairman, I have quite a few questions. I know my time 
is not going to allow me to ask them all and to pursue them in 
the way I want. So for the record, I would like to submit those 
to the agencies and would request an answer.
    But I do have a couple that I would like to bring forward 
now, and I am out of breath; not because of the question, 
although this could knock the breath out of me, if the answer 
if wrong.
    [Laughter.]
    Mr. Otter. To Administrator Runge, last year, Congress 
passed the Thread Act, to guard consumers in the wake of a rash 
of tire-related accidents in the year 2000. This act empowered 
your agency to issue new rules and regulations concerning 
tires.
    I have been informed that motorcycle apparel is also 
covered under the Notice of Proposed Rulemaking issued by your 
agency. Not once, Mr. Runge, during the debate over this bill 
was motorcycle apparel ever mentioned.
    So I would like to ask you whether or not you believe it 
was the intent of Congress for motorcycle apparel to be 
included and covered by this act.
    Mr. Runge. Thank you, Congressman. I have no idea what the 
intent of Congress was here. But the beauty of a rulemaking is 
that if a proposed rulemaking goes out, and we get lots of 
comments about it, we respond to all of those comments. I 
believe what you are referring to is the Early Warning Rule 
that we are proposing. Congress was very intent on our getting 
information from manufacturers, both the vehicle manufacturers 
and the equipment manufacturers.
    In the event that there is a complaint about that equipment 
or those vehicles, then we will get an early warning of 
potential problems.
    So to the extent that one's motorcycle coat could harm 
them, I suppose they would need to report that. But I would 
think it would be very unlikely. I am kind of a common sense 
guy, and I just do not see where that would apply.
    Mr. Otter. Well, I certainly appreciate that. I am kind of 
a common sense guy, too, I think. But I also remember, as Lt. 
Governor of the great State of Idaho for 14 years, as I watched 
agencies continue to over-reach missions that Congress had set 
before them, with the limited and precious resources that we 
have to do the jobs in the core mission that each of these 
agencies ought to be doing.
    Then I would hope that we would govern ourselves and limit 
ourselves to those core missions, and use those previous 
resources that we have got to do that, rather than some 
adventuresome efforts on the part of perhaps some enthusiastic 
folks within your agencies.
    Mr. Runge. Thank you.
    Mr. Otter. It is common sense that I did not call them 
bureaucrats. I want you to recognize that.
    [Laughter.]
    Mr. Otter. To Administrator Clapp, our Nation's economy is 
highly dependent upon motor carriers. Trucks and truck drivers 
are still, in part, demonized by the media, and feared by large 
segments of our population.
    I think, as you might recall this, during my introductory 
testimony that I offered on the 682 miles of Highway 95 in our 
section of the Pan American Highway, and hopefully, NAFTA's 
north/south trade corridor. I am really disappointed that your 
agency does not put a little bit more emphasis on enhancing the 
popular view, and there should be a popular view, that the 
industry has and should have, rather than just regulating it.
    Your agency does not even have a hot link that goes from 
its web site to at least an educational process for the general 
public, that they could find out many of the benefits.
    In fact, one of my other questions which would deal with 
you or perhaps any of the other agencies is that, you know, 
probably nobody spends more time on the highways than the 
Nation's truckers and their families that travel on the 
highways. As a result of that, they probably have more eyes and 
ears at any one moment than all the law enforcement that we 
have got from the state, the counties, the cities, the Federal 
Government, everybody.
    Yet, we have not developed a system which allowed them a 
hotline into the tunnels they may be going under, when they see 
something that is out of the ordinary. This is in this day 
where we never know when the next terrorist act could come 
from, or something that is naturally problematic.
    I am wondering out loud here in two areas. One, is there 
not anything that your agency can do to help educate the public 
as to the benefits and to the great good that the truck 
industry does? Number two is to provide some sort of a national 
hotline, that when they see something out of the ordinary on 
this Nation's highways, that they could become a tremendous 
resource of intelligence and influence for your agency.
    Thank you, Mr. Chairman; and I would like to hear your 
answer.
    Mr. Clapp. Thank you, Congressman Otter. Those were very 
perceptive remarks, and you have given me something to chew on 
a little bit.
    I will say that I just came from the Midwest Safety 
Conference, which is pulling together people from our agency, 
other modal agencies, as well as their counterparts in the 
states, on a voluntary basis. They are sitting together almost 
all of this week, to brainstorm ways in which we can work 
together, between modal agencies and between Federal and state, 
to improve safety on our Nation's highways.
    I had the privilege of addressing that conference. What I 
thought was the key element of what I had to say was that, of 
course, I do have an appreciation of the significance of the 
motor carrier industry to our entire economy. Also that we have 
a cadre of what I like to call the competent majority, a very 
large number of competent people, whose profession is operating 
those vehicles up and down the Pan American Highway and east/
west across this country. They are doing an excellent job of 
it. Indeed, every day, by their sheer professionalism, they 
save people's lives by not allowing another person's mistake to 
result in that person's severe consequences, and possibly even 
death.
    I must admit, there is also what I refer to as a memorable 
minority, which I believe to be a small minority, of drivers 
who choose, for whatever reason, not to behave in a responsible 
fashion.
    When it comes to enforcement, an area that Jeff and I both 
share an interest in, as well as Mary, we need to deal with 
those particular individuals who, for whatever reason, have 
made the choice not to act in a responsible way.
    But it is certainly true that the guys you do not notice 
and the gals you do not notice, who are doing their jobs well, 
day in and day out, are a big resource.
    There are programs in a number of states, between industry 
and the Highway Patrol, for example, in which the drivers do 
know that they can reach the Highway Patrol on CB, and report 
not only unsafe behavior, such as a DUI, but also suspicious 
behavior. Since September 11th, these folks have really been 
sensitized to notice things that do not look right around them, 
and to contact a hold of law enforcement authorities.
    Of course, our agency is cooperating with the FBI in 
communicating the results of the 36,000 carrier visits that we 
have made, especially if we happen to run across something that 
does not look right. We and the carriers are making that known 
to the FBI. But we can do more, and I appreciate your idea on 
that subject.
    Mr. Otter. Thank you, sir.
    Thank you, Mr. Chairman.
    Mr. Petri. Thank you.
    Mr. Kerns?
    Mr. Kerns. Thank you, Mr. Chairman.
    I want to commend the Chairman for the timeliness of this 
hearing. I have just recently met with members of the State of 
Indiana, Department of Transportation. Certainly, Indiana is 
facing a potentially serious shortfall in funding. We met also 
with the industry folks.
    It is very difficult in an environment where revenues are 
coming in, perhaps at this level, and they may be coming in the 
next year at this level; and then not knowing what they will be 
in the future.
    I know other industries, the steel industry and others, 
have difficulty when foreign competition flood our markets with 
products and decimate their ability to compete. Similarly, they 
were facing that in the highway industry, with revenues, if 
there are shortfalls and not knowing what their future may 
hold, then employment drops in a time when we need to be 
increasing employment to try to stimulate the economy.
    Certainly, with the safety in the infrastructure of the 
states, you know, I sympathize and empathize with those states 
that are trying to plan for a future in the budgets, and they 
have projects in place. It is important to the community and to 
the safety to the communities; and not being able to know those 
revenues, if they are going to be there.
    I think there is a piece of legislation that we are going 
to be behind in introducing, that is going to work to, in fact, 
shore up some of the funding, the shortfalls that may be 
occurring. I think that would be important.
    I did note your comment that sometimes agencies do not know 
the intent of Congress. Well, this being my first time as a 
student of government, I have often thought that was the case, 
with the legislation and the way things are implemented, but I 
know you are dealing with lots of things.
    I do want to thank you for being here today, as panelists. 
I know you have a big job ahead of you. Anybody can take this 
question. We want to work with you to get as much of the funds 
that are available from the Trust Fund into the hands of the 
states, into the hands of those that are building our Nation's 
roads and highways and bridges.
    It is a vital interest to the national security of this 
country. It a vital interest to the safety of the people of the 
states, and after all, the American people. They pay taxes, gas 
taxes and other taxes, for that purpose, so those roads, in 
fact, can be built, and bridges and infrastructure. This is for 
whomever would like to like to answer that question, and then I 
have another question after that.
    Ms. Peters. Mr. Chairman, Congressman Kerns, just so I can 
specifically understand, your question is, are there methods by 
which we could get that money into the hands of those who use 
the money to build and operate the infrastructure more quickly?
    Mr. Kerns. Well, we want to work with you, the Congress, we 
and the Administration, on ways that we can, in fact, get as 
much money into the hands of the states; that money that is 
coming into the Trust Fund, making sure we do all we can to 
conserve and run a streamline operation, so that the money goes 
to building roads, highways, and bridges, and those things, and 
is distributed as quickly as we can.
    Ms. Peters. Right.
    Mr. Kerns. I guess cooperation is one thing that we are 
asking for; but also, if you have other ideas and ways in which 
we could be helpful, in fact, to shore up some of the 
shortfalls on money that is going to the states.
    Ms. Peters. Mr. Chairman, Congressman Kerns, I will start, 
and I will certainly ask my colleagues to jump in here, as 
well.
    But I think some of the key tenets of TEA 21 that were 
discussed earlier are the best opportunities for State 
governments, such as Indiana, to have programs that can be 
responsive to their needs.
    The firewalls, the Trust Fund, the minimum guarantees, all 
of those were very important parts of a piece of legislation 
that allowed a number of states to have more stable programs 
than they had ever had in the past.
    Funding flexibility also is very important, because each 
State does not have needs that duplicate other areas. They are 
very unique needs.
    I spent a number of years in Indiana. I know the issues. In 
fact, that is where I lived when the hospital was on one side 
of the railroad track, and my home was on the other.
    Mr. Kerns. That is what I understood, yes.
    Ms. Peters. So those are issues that by giving flexibility 
to the states so that they can use the money in the manner that 
best meets their needs, I think that is another very important 
tenet.
    As I responded to Congressman Borski earlier, I also think 
that we do need to look comprehensively at the compilation of 
the Trust Fund. We need to diversify our portfolio a little bit 
and look at the long-term stability of those funding mechanism 
into the future. Because clearly, there are indicators already 
in this forecast that we cannot continue to depend on the same 
mechanisms that have served us well perhaps in the past.
    Again, I would defer to my colleagues for other answers.
    Mr. Kerns. Yes, sure.
    Ms. Dorn. In addition to what the Administrator mentioned 
about that very important source of revenue, Congressman Kerns, 
I would add two things that I think are very important, in 
order to ensure that we get the most money out to the states, 
so that they can be utilized for effective projects.
    There would be two things I would add. One would be that we 
need to ensure that we have effective oversight to ensure that 
projects go well and the planning goes well. We need to make 
sure, however, that that is value-added oversight.
    We can have oversight upon oversight, rule upon rule upon 
rule, and that dilutes the effectiveness of the Federal dollar, 
and getting it out there, so that it can be of value to 
communities.
    So we, in the Administration, need to work with you under 
reauthorization, to determine how can we simplify, if possible, 
and make more effective our oversight. That is one piece.
    The other piece is, I think that what Congressman Kirk 
mentioned earlier, about the community-wide planning studies on 
an intermodal basis from the get-go, to ensure that the local 
community consensus is there before projects are begun. That 
saves time, saves money, and ensures mobility.
    So I think that is a piece that we may want to think about 
reinforcing in reauthorization, and I look forward to working 
with you on that particular piece.
    Mr. Kerns. Well, thank you, and another question, I raised 
or someone raised, concerns that perhaps new emphasis on 
security of airports and infrastructure needed there would, in 
fact, potentially hurt funding for highways, roads, and 
bridges.
    Have there been discussions or any concerns on your part? I 
did not suspect that there would be. But I think that we need 
to go in multiple directions, and the security of airports is 
paramount, in looking at ways to build safer and more secure 
airports. But at the same time, we would not want to impact the 
important work of the folks going on the highways and to those 
airports.
    Ms. Peters. That is correct. Mr. Chairman and Congressman 
Kerns, I think you make some very good points there. I can 
assure you, and it is very important to the Secretary, as well, 
that highway funds not be diverted to other uses.
    Airport security is important. The Department is working 
very hard with the Transportation Security Administration, 
which will encompass all modes eventually. Certainly, 
initially, their emphasis is on aviation. But eventually, we 
all will work with Transportation Security, in terms of our 
various modal functions. But there is no intent, by this 
Secretary or this Administration, to divert highways funds away 
from that.
    Initially, we do have what is called the National 
Infrastructure Security Committee, that is chaired by our Chief 
of Staff. We are working across modes on security issues, 
because we recognize that while the terrorist attacks that were 
inflicted on this country in September were through the 
aviation mode, we know that there are vulnerabilities in other 
modes.
    We are working very hard with State and local partners to 
ensure that we are identifying high vulnerability, high risk 
assets, and protecting those, to the greatest extent possible. 
There is a lot of cross-modal communication here, as we do 
that. All of us are members of that committee.
    Mr. Kerns. Thank you.
    Mr. Runge. If I may, Congressman, I would also like to 
remind you that these funds are also very important for not 
only the security of transportation, but also the safety of 
those that want to get home at night safely, and have dinner 
with their families.
    My job is to make sure that that happens. I want to make 
sure that the committee understands the huge economic toll, the 
burden of injury and fatality, that is placed on this country 
by 41,800 people dying on its highways every year.
    So I would ask you please to talk about safety, as you talk 
about security and as you talk about road building and bridge 
building, and to please be reminded that this is not just a 
human toll, but it is very much an economic toll in our 
country.
    Mr. Kerns. I want to thank you all for being here. I know 
you have a very tough job, and I think you are doing a very 
good job.
    I know in recent conversations that I have had with new 
Commissioner Mendott in Indiana, that we are currently in 
Indiana at about a four percent congestion rate. Within a few 
years, we will be at 25 percent congestion rate. So 
infrastructure is vitally important.
    With that, Mr. Chairman, I yield back. Thank you.
    Mr. Petri. Thank you.
    I will submit questions for the record. But I do want to 
ask a few, if I could, as well.
    First of all, Administrator Peters, I think you are aware 
of the concern about the shortfall in this year's budget. Our 
committee, with strong bipartisan co-sponsorship with the 
Senate Environmental Committee, will be introducing identical 
bills to restore the $4.4 billion in highway funding to reach 
the unadjusted levels written into TEA 21 as a minimum.
    Can we count on you to take the time to review this bill, 
and to consider offering your support, or at least taking it up 
in the Administration, and trying to get a more consistent 
approach here?
    Ms. Peters. Mr. Chairman, we certainly are sympathetic to 
the issues raised by members of this committee, as it relates 
to transportation funding. We would be glad to work with you in 
reviewing bills, and the impact of the bills, and what they 
might be able to do, yes.
    Mr. Petri. The bill number is H.R. 3694, which has the 
unanimous support of all of the Republicans and Democrats on 
the committee, and the original co-sponsorship of all but one. 
So we think that is a sign that there is strong concern here in 
the House, which we feel is matched in the Senate, with 
addressing this problem in as expeditious a way as possible.
    As you know, states are analyzing their budgets. As a State 
administrator, you understand the pressures that they are also 
under. They have balanced budget requirements. Many of these 
are matching fund programs.
    If we start looking like the money is not going to be there 
at the Federal level, there will be big pressure to eliminate 
money at the State level, or to defer that as well. We are 
talking about how many hundreds of thousands of jobs, with the 
loss of just the Federal funds.
    But you can multiply that with the loss that will occur 
because of deferred State and local matching for some of these 
projects.
    So I think we are engaging in dangerous budget gamesmanship 
here, which we need to get off the table as quickly as 
possible, so that we have some confidence and a framework that 
people can move forward, as they plan and invest in the 
transportation sector of economy. We are hoping to work with 
you on that.
    I have a couple other quick questions. There was, in TEA 
21, language calling for a study on the adequacy of rest stops. 
That is six months overdue. Do you have any idea when that 
study will be coming out?
    Ms. Peters. Mr. Chairman, I am aware of the study. Let me 
consult with staff, and see if we know a specific date. If not, 
I will certainly get back to you.
    Mr. Petri. Thank you. Then Administrator Dorn, in analyzing 
the budget proposals, we notice that there is a proposal to 
limit the Federal share of new rail start projects to 50 
percent for all projects that do not have their grant 
agreements in by October 1st.
    Is this a sign of new policy going forward? If it is, will 
this cause some tension, because we have a higher match for 
highway projects, and that may put transit projects at a 
disadvantage, as people are allocating their matching dollars 
at the State and local level? Could you address that?
    Ms. Dorn. Certainly, Mr. Chairman, you are correct. It is 
the Administration's intent in the fiscal year 2003 budget that 
that be a part of long-standing policy, or new policy, of the 
50/50 match.
    It should be pointed out, as I know you are aware as an 
expert in this arena, that the average is now, for full funding 
grant agreements, about 53 or 54 percent. So most of the 
projects are already achieving that match.
    I believe that this approach, this 50/50 change, really 
allows us to leverage the new starts funds for a growing number 
of projects that are in the pipeline, and that this is an 
appropriate sort of action; that it does incentivize the 
localities, and it ensures that we will have the opportunity to 
fund, from the Federal level, a larger number of projects.
    At the same time, as the Secretary has said, it is 
important to ensure that the community is guided in its 
selection of projects by the merits, rather than the matching 
ratio or the Federal match. So I know that this Administration 
would work with you to craft legislation which attempts to meet 
both of those goals.
    Mr. Petri. Thank you. Well, it is a concern, and we will be 
hearing from a lot of people who are concerned in this area. So 
we want to work to come up with as good a framework as 
possible, that is fair to the different modals, and does not 
buy us investment unnecessarily.
    As you may have noticed, the 2002 transportation 
appropriation bill, by our colleagues on that committee which 
passed the Congress, included 76 new start earmarks, of which 
36 were not yet in final design or construction stage.
    These less mature projects represent some 16 percent of the 
new starts program funding; although in TEA 21, we had a limit 
of eight percent for new start funding. As a result, 14 full 
funding grant agreements were under-funded, since they shifted 
money around. I mean, it does not come from the tooth fairy. It 
was coming from other projects that were more thoroughly 
vetted.
    How does this earmarking affect the integrity of the full 
funding grant agreement financing mechanism, and how might it 
affect reauthorization, as we go forward?
    Ms. Dorn. Yes, Mr. Chairman, that is a very good question. 
I think that this committee should be proud, as I know that it 
is, of the comprehensive rating criteria that they instituted 
in the TEA 21 legislation for projects larger than $25 million.
    That merit-based evaluation, I believe, is beginning and 
has, for some period of time, allowed that merit-based 
consideration to happen more often than it would have, had 
those criteria not been in place.
    I think in the context of reauthorization, the committee 
may well want to consider the development of priority criteria 
in other areas; say, for example, in the bus capital program 
and the research program. That would then give the Executive 
Branch an opportunity to evaluate the merits of particular 
programs, and that could then be a strong guide, if you will, 
for Congress, in how it chooses to deal with the funding issue 
for particular projects.
    So we look forward to helping to develop a rating criteria, 
or a set of guidelines, or a system that might help serve as a 
guide, because earmarks can tend to be problematic in that 
regard.
    Mr. Petri. Thank you.
    Are there additional questions?
    Mr. Borski?
    Mr. Borski. Mr. Chairman, if I may ever so briefly follow 
up on your question to Administrator Dorn, and I share your 
concerns about changing of the transit formula or spending 
ratios.
    I would strongly urge you, if the Administration is 
considering a change, that they do it here, through this 
committee, and not the Appropriations Committee. It is our 
responsibility in the next Transportation Bill, TEA 21 or 
NEXTEA or TO-3 or whatever we are calling it, to make those 
decisions. I would strongly suggest that that would be a 
mistake.
    Ms. Dorn. I certainly concur with you, and thank you, 
Congressman.
    I would make the point that the announcement by the 
Administration, which was made last year and this year, is only 
a heads-up. It was with our full recognition that this requires 
a change in law that would come to this committee.
    We felt it would be fair to those who are considering, on a 
local basis, projects that they know in advance of the 
Administration's intent. We certainly respect the right of this 
committee to make the final decision. Thank you.
    Mr. Petri. Mr. Otter?
    Mr. Otter. Thank you, Mr. Chairman, and my apologies for 
asking for one more question. But I want some clarification 
from Administrator Peters, if I might.
    There are some corners that are calling for expanding the 
eligibility of the Highway Trust Fund. We have discussed, in 
the substance of the entire panel this morning, the limited 
resources that we have.
    I would hope that you and the rest of your colleagues would 
resist any expansion of eligibility until we take care of the 
core needs that we already admit have limited resources. I 
would just like to get at least some sort of an idea of how you 
feel about expanding the eligibility.
    Ms. Peters. Mr. Chairman and Congressman Otter, it is an 
issue that we have had some discussion about. While there 
certainly are merits in application to other modes, the 
Secretary has indicated just what you said; that the needs are 
so great within this mode right now, within the modes that we 
now support with the Highway Trust Fund, that we should confine 
our application of those funds to those modes, and perhaps look 
for other funding sources for other transportation needs.
    Mr. Otter. Is that a quote from the Secretary?
    Ms. Peters. That is not a quote from the Secretary. I am 
not authorized to speak for the Secretary, but that is the gist 
of the discussion that we have had.
    Mr. Otter. Thank you very much.
    Mr. Petri. Thank you.
    With that, this hearing is adjourned.
    [Whereupon, at 12:38 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]






       PERSPECTIVES OF GOVERNORS AND LOCAL ELECTED OFFICIALS ON 
                       REAUTHORIZATION OF TEA 21

                              ----------                              


                      Thursday, February 28, 2002

        House of Representatives, Committee on 
            Transportation and Infrastructure, Subcommittee 
            on Highways and Transit, Washington, D.C.
    The committee met, pursuant to call, at 10:02 a.m. in room 
2167, Rayburn House Office Building, Hon. Thomas E. Petri 
[chairman of the subcommittee] presiding.
    Mr. Petri. We are meeting this morning to hear from the 
leaders of our States, cities, and counties regarding their 
perspectives on the reauthorization of the Transportation 
Equity Act for the 21st Century, or TEA-21.
    I am very happy to see our friend, the Governor of the 
Commonwealth of Kentucky, here again before this committee. We 
are looking forward to your testimony in your capacity as Vice-
Chairman of the National Governors Association. The Governor 
was part of a delegation of governors that met with President 
Bush on Monday afternoon to speak out in support of this 
committee's proposal to support cuts in the Federal Aid Highway 
Program. That is certainly an important initiative.
    The proposed restoration of at least $4.4 billion in 
highway funds to TEA-21 baseline levels is a critical step in 
both short-term and long-term efforts to meet our Nation's 
transportation needs. And I say ``at least'' because I think 
the prospects are looking increasingly bright on the Senate 
side and hopefully we can march with them in doing somewhat 
better than that. Hopefully, a lot better than that. In the 
short-term, we will save a minimum of 180,000 jobs supported by 
Federal highway funds. Tens of thousands of additional jobs 
will be saved with State and local matching funds.
    In the long-term, the restoration insures that a higher 
baseline is used to estimate future highway expenditures when 
TEA-21 expires. Higher baseline numbers must be consistent with 
the actual receipts in the highway trust fund. If artificially 
low funding levels were assumed to be the baseline going into 
the reauthorization, huge balances would build up in the 
highway trust fund. This would occur while our roads, bridges 
and transit systems deteriorate.
    Although we made progress with TEA-21, the Department of 
Transportation reports that all levels of government are not 
spending enough even to maintain the current system. We are 
only providing 57 percent of the funds necessary to fund needed 
improvements. Clearly, this is not the right time to cut our 
investment in surface transportation infrastructure.
    Our second panel will consist of witnesses from cities and 
counties across our Nation. Earlier this week, I received a 
letter of endorsement for our bill signed by the National 
Association of Counties, the National League of Cities, the 
U.S. Conference of Mayors, the American Public Works 
Association, the Association of Metropolitan Planning 
Organizations, the National Association of County Engineers, 
the National Association of Development Organizations, and the 
National Association of Regional Councils. All of the witnesses 
on the second panel are members of one or more of these 
organizations.
    The support among Members of Congress for the Highway 
Funding Restoration Act is now overwhelming. We have 265 
cosponsors in the House and every day we add more. The 
bipartisan leadership of the Senate Budget Committee has now 
issued statements in support of restoring highway funding in 
the budget, as I indicated earlier. We are meeting with the 
House Budget Committee and hope to have their official support 
for restoration of highway funding very soon.
    We appreciate the support from all the witnesses here today 
for our efforts to increase highway funding and know that you 
will do your part to ensure that State and local funds are made 
available to meet matching requirements. This is but the first 
step in a long series of battles this committee will take on to 
ensure the long-term strength of the Federal highway and 
transit programs and highway and motor carrier safety programs.
    Overall, TEA-21 has been a tremendous success. We would 
like to duplicate that success and strengthen the provisions 
that are most helpful in meeting our Nation's needs. These 
include budgetary firewall protections that guarantee minimum 
levels of annual spending, holding the highway trust fund 
harmless while encouraging production of alternative fuels, 
equitable funding among the States through the minimum 
guarantee, flexibility in the eligible uses of formula funds, 
community-based transit programs, and expedited projects and 
services delivery.
    The committee addressed these issues in TEA-21, but in many 
cases improvements can be made in the reauthorization. I am 
very interested in each of the witnesses' views of these issues 
and look forward to hearing what we can do to strengthen our 
surface transportation programs through the reauthorization of 
TEA-21.
    At this time, I yield to the Ranking Democrat on the 
subcommittee, my colleague, Bob Borski.
    Mr. Borski. Thank you, Mr. Chairman.
    I first want to commend you on your efforts to continue to 
move forward with the reauthorization of the surface 
transportation programs. Today's hearing will provide the 
committee with an opportunity to hear from State and local 
government officials on the successes, as well as shortcomings, 
of the surface transportation programs. TEA-21 has been 
considered an overwhelming success by many State and local 
government officials. However, that success is in jeopardy, 
threatened by a proposed reduction of $8.6 billion in funding 
for fiscal year 2003.
    The Administration's budget proposal for fiscal year 2003 
provides $23.2 billion in obligation authority, a 29 percent 
reduction below fiscal year 2002. Such a dramatic reduction in 
highway spending during a recession will have a devastating 
effect on the Nation's economy. The loss of funds will 
translate into a loss of approximately 350,000 transportation-
related jobs.
    Along with the leadership of the committee and virtually 
all of its members, I have cosponsored H.R. 3694, the Highway 
Funding Restoration Act, to restore as much of the reduction as 
possible. This interim legislative proposal will help restore 
faith and trust in the program and the funding levels 
authorized in TEA-21. H.R. 3694 will also establish a baseline 
for reauthorization of the surface transportation programs. 
Without a financially stable baseline for reauthorization of 
surface transportation programs, the committee will be faced 
with a baseline at pre-TEA-21 levels.
    Mr. Chairman, I will continue to work with you, other 
members of the committee, and others to advance the principles 
embodied in H.R. 3694 so that the reauthorization of surface 
transportation programs start on a sound financial footing. As 
the committee continues to advance the reauthorization process, 
we must reaffirm our commitment to rebuilding America by 
providing a balanced investment in our Nation's highways, 
transit systems, and intermodal facilities. More importantly--
or just as important--we must do so in a fiscally responsible 
manner.
    The guaranteed Federal funding levels for the surface 
transportation programs must be continued and keyed to the 
receipts of the highway trust fund. A modification to 
provisions will enhance funding stability for the highway 
program in future years. Working in partnership with State and 
local government officials, we want to preserve and strengthen 
the policies and principles embodied in TEA-21. Much of the 
success of TEA-21 may be attributed to the flexibility, 
intermodalism, enhanced safety, livability, and preservation 
principles embodied in the statute.
    Mr. Chairman, I look forward to receiving the views and 
recommendations from today's witnesses as we seek to improve 
the Nation's surface transportation programs.
    Mr. Petri. Thank you.
    A statement by the Chairman of the full Committee, Don 
Young, will be submitted, as well as from Congressman Oberstar, 
although he may be here in a few moments.
    Are there other members of the subcommittee who wish to 
make opening statements?
    Mr. Rahall?
    Mr. Rahall. Thank you, Mr. Chairman.
    I thank you, Chairman Petri and Ranking Member Borski, for 
holding today's hearing. I appreciate our first witness, a 
governor from a neighboring State to my State, West Virginia, 
the governor of Kentucky, Governor Patton, and other local 
officials that are with us today. Each of you has the hands-on 
experience of putting Federal highway money to use once it is 
allocated to the States. I commend you for that experience and 
professionalism.
    I also want to thank all of our witnesses today for 
supporting H.R. 3694, referred to by both the Chairman and the 
Ranking Member, the bipartisan Highway Funding Restoration Act. 
Your support shows your willingness to work with this committee 
on this very critical issue.
    Through this bill, we are working to prevent 340,000 job 
losses and delays in highway projects that the proposed $8.5 
billion budget cut could cause in all 50 States. As of today, 
we have 265 bipartisan cosponsors. I encourage our witnesses to 
talk with their particular members of the House of 
Representatives who have not yet signed on and ask them to 
cosponsor.
    As we look at how we can continue to improve TEA-21, I want 
to note that research does play a vital role in how we can best 
provide highway and transit services. I was proud that TEA-21 
authorized $158.8 million in transportation research funds and 
$36 million in transit funds for university transportation 
centers in all ten regions of the Nation. Particularly, at 
Marshall University in Huntington, West Virginia, we were able 
to start the Rahall Appalachian Transportation Institute with 
TEA-21 funds. My vision statement for the institute is building 
jobs through transportation.
    Not only is the institute working to create jobs through 
research projects that will enhance our transportation 
infrastructure, but since it began operating in 1981, the 
institute has conducted research in highway safety, 
environmental streamlining, ITS, using advanced technology to 
improve signage, railroad and truck intermodal transportation, 
and critical personal safety issues such as drowsy driving. And 
I could go on. But these centers are certainly educating 
tomorrow's transportation experts, and that is a very important 
and vital success story of TEA-21.
    I thank you, Mr. Chairman, and look forward to hearing the 
witnesses today.
    Mr. Petri. Thank you.
    Any other opening statements?
    I think we will call Mr. Clement to make a statement and to 
introduce the witness.
    Mr. Clement. Thank you very much, Mr. Chairman.
    Mr. Chairman and Ranking Member Borski, it is my pleasure 
to join you in welcoming Governor Patton from my neighboring 
State of Kentucky, and several distinguished local government 
officials we have with us from across the Nation.
    Today we continue the initial process of reauthorizing what 
many have called one of our greatest legislative successes, 
TEA-21. The Transportation Equity Act for the 21st Century 
stands as a shining victory for this subcommittee and for the 
American people.
    While I am sure that our witnesses share this view, I want 
to hear from you, Governor Patton and others, on how we can 
improve the bill, making a great piece of legislation even 
greater. For instance, I am interested to know if there is a 
need for changes to the TEA-21 formula system that would 
protect against the gross fluctuations in highway funding 
levels we see projected for 2003, and which prompted this 
committee to introduce H.R. 3694. Clearly, any change must not 
compromise the essential principle that tax and user fee 
revenue be the major factor in determining highway funding 
levels. But we need to avoid the kind of funding cuts offered 
by the President in his 2003 budget if we are to maintain and 
expand our transportation infrastructure.
    I am also concerned with the FTA's decision to shift new 
start local State match requirements to a 50 percent share and 
if this puts some communities' transit initiatives at a 
disadvantage compared to highway programs. Additionally, the 
States need even more flexibility to direct their funds to the 
projects that are most important within their communities.
    As we look to reauthorization, I know this subcommittee 
will work diligently together to protect the gains we have made 
thus far and to continue us on the path we have started. Now, 
more than ever, our need for a true multimodal transportation 
system is clear, for our economy, our defense, and our way of 
life. TEA-21 is the vehicle to get us there, and I remain 
committed to strengthening it and our Nation.
    And I might say, Governor Patton, you have been a good 
governor and a very effective governor. I am looking forward to 
hearing what you have to say. I know I have been working with 
your people on passenger rail, moving Amtrak from where we have 
it all the way down to Louisville and bringing it into 
Nashville. As you know, it comes into Louisville at 7:30 in the 
morning and that Amtrak equipment just sits there all day until 
9:30 at night, where you can run it all the way down to 
Nashville and make it more profitable for Amtrak. We would have 
more riderships on the Kentucky Cardinal Line, which I know is 
important to you and me.
    But I also want to mention the high-speed corridor. We 
really have an opportunity there for Kentucky and Tennessee, 
out of Chicago and all that. We need to look at that very 
seriously. I sure hope the State of Kentucky will participate 
at a level, and I know Tennessee will as well, because we could 
very well run those high-speed corridors right down the 
interstate highways, down the median where we have those 
rights-of-way and where we wouldn't have a heavy expense when 
it comes to grade crossings. I know you know how expensive 
those railroad crossings are.
    We have some real opportunities on this high-speed 
corridor. I sure hope you and your fine staff will look at it 
very seriously.
    Governor Patton, it is good to have you here.
    Mr. Petri. Thank you.
    Representative Kelly, do you have a statement to make?
    Mrs. Kelly. Thank you, Mr. Chairman.
    Governor Patton, on behalf of the Kentucky branch of my 
family, I do welcome you also.
    I want to thank you, Mr. Chairman and the witnesses. Our 
hearing today is not just useful in helping us prepare for TEA-
21 reauthorization, but it brings to attention the issue that 
is even more pressing to all of us, and that is the effect of 
the proposed budget reduction on Federal highway aid for this 
next fiscal year.
    Solid, predictable funding streams for transportation 
enable our State and local governments to implement far-sighted 
transportation policies that best suit the needs of our own 
communities. Stability is what TEA-21 is all about. It is what 
we have to provide.
    I think with the proposed budget cuts that have come up 
recently, we have already seen that there are some problems 
that have been created when the certainty of Federal assistance 
is jeopardized. So I feel we need to build on the successes of 
TEA-21. I thank you all for being here to testify. I look 
forward to your testimony, but I wanted to put on record that I 
feel very strongly that we need to give our States a sense that 
they can plan for a solid stream of money coming from the 
Federal Government. That is a job we all pledged to do, and we 
need to do it.
    I yield back.
    Mr. Petri. Thank you.
    Are there other opening statements?
    Mr. Cummings. Thank you very much, Mr. Chairman.
    TEA-21 and the Federal highway transit programs it 
authorizes are extremely important for our Nation's urban 
areas. This legislation has proven to be the backbone of 
funding for the many transit systems that are sometimes the 
lifeblood of communities. In many depressed areas, like those 
found in my district in Baltimore, programs authorized under 
TEA-21 have provided funding for various community-related 
initiatives. One such program, the Job Access and Reverse 
Commute Program has proven invaluable to many urban residents. 
The program helps to provide transportation options for inner 
city residents who may not have reliable transportation that 
would give them access to suburban jobs.
    In other words, people seeking viable employment are no 
longer limited to available inner city jobs, which are often 
scarce. With the Job Access and Reverse Commute Program, they 
have the flexibility to commute to surrounding areas. This is a 
case of Federal transportation programs working to promote 
economic development, but more importantly, the programs help 
people to improve their lives and their neighborhood.
    While I am on the subject of access, I would be more than 
remiss if I did not mention the Maryland Rail Commuter Program, 
MARC, trains that provide a viable alternative to driving while 
at the same time help reduce congestion for commuters traveling 
from Baltimore to Washington. Riding a MARC train definitely 
has its advantages. While most motorists face a daily battle 
against gridlock and difficult driving decisions, the most 
difficult decision a MARC commuter is likely to face is which 
section of the paper they should read first.
    Another program that has played a critical role in the 
economic development of Baltimore City is the Enhancement 
Program. We are very proud of our pedestrian promenades along 
the waterfront. We have TEA-21 funds to thank for those 
improvements.
    Mr. Chairman, TEA-21 improved the spirit of ISTEA by 
requiring that governments and citizens stay involved in the 
transportation planning process. It then took this involvement 
and commitment to another level by requiring that industry 
participate as a major stakeholder in the metropolitan planning 
process, a process that before had almost solely involved local 
and State government.
    Maryland has a remarkable experience working with local 
governments in monitoring and controlling traffic congestion. 
TEA-21 afforded the State the opportunity to work with its 
local universities, such as Morgan State University, to 
cooperatively develop technology solutions to address 
challenges such as electronic screening of motor carriers for 
safety inspections.
    Finally, Mr. Chairman, while I sing the praises of TEA-21, 
I must note that during the reauthorization process I would 
like for us to look at the problem of congestion and the ever-
growing need for improved transit services in our cities and 
counties. I also realize that with reauthorization we face 
serious concerns regarding funding for safety and new security 
measures, while simultaneously funding additional 
transportation needs.
    So, as I have said before, I applaud TEA-21, but it is by 
no means perfect. Mr. Chairman, the State of Maryland has many 
success stories that I could report on. I could go on and on, 
but I will not. Mr. Chairman, thank you very much for holding 
this hearing today. I look forward to hearing from our 
witnesses.
    Mr. Petri. Thank you.
    Mr. Otter?
    Mr. Otter. Thank you, Mr. Chairman.
    I am going to submit my opening statement for the record, 
but inasmuch as most of the opening statements have not touched 
on an issue that I would like to elicit a response from our 
panels today, and that is the $14 billion--and we are talking 
about $8.6 billion that is not in the next appropriation--but 
about the $14 billion nationwide that is tied up in studies so 
that construction cannot go forward. So it makes precious 
little sense to me, although I am an enthusiastic champion of 
putting that $8.6 billion--or as much of that $8.6 billion as 
we can through House Bill 3694--back in the program, I am still 
concerned that one of the great magics that we were going to 
work with TEA-21 has not been realized. We have spent a lot of 
money, as was intended in the authorization. But one thing that 
we have not done is streamline the effects of going forward 
with construction.
    So it would be my hope--we heard in this committee that 
there is $14 billion nationwide. In my State of Idaho, we know 
that there is $58 million that is presently being tied up 
waiting for some additional government agency to give their 
permit to go forward. And although I realize that these are 
important, I think that the streamlining aspect of TEA-21 has 
not been realized. I would hope that this committee would be as 
enthusiastic about the streamlining aspects and the 
streamlining promise of TEA-21 as we are now about getting the 
$8.6 billion back.
    It makes precious little sense to me to appropriate the 
money and then not be able to spend it. If we really want 
economic recovery, if we really want to put some enthusiasm 
into our economy--we have $14 billion that is already spent 
laying in the bank waiting to be exercised, yet we have some 
agency somewhere holding up laying the asphalt and getting on 
with the process.
    Mr. Chairman and Ranking Member, I very much appreciate 
this hearing today. I would elicit responses from our panels 
today relative to how much time it takes to get a project going 
forward.
    Thank you, Mr. Chairman. I yield back.
    Mr. Petri. Thank you.
    Any other statements?
    Mr. Petri. Governor, thank you very much. If you have a 
chance, we would like you to express your appreciation to the 
45 or 46 colleagues of yours who have joined in a letter 
endorsing the increase in maintenance of funding for our 
Nation's highways. We appreciate that and look forward to your 
statement, sir.

 TESTIMONY OF HON. PAUL E. PATTON, GOVERNOR, REPRESENTING THE 
     COMMONWEALTH OF KENTUCKY, AND THE NATIONAL GOVERNORS 
                          ASSOCIATION

    Governor Patton. Thank you, Mr. Chairman, Ranking Member 
Borski, and other members of the committee. I appreciate the 
opportunity to appear before you representing the National 
Governors Association, where I serve as Vice-Chair. As you have 
noted, I am backed up by a letter from the governors of 44 
States and two territories that endorse the proposal.
    With your permission, I would like to summarize my written 
remarks and perhaps we can have a meaningful discussion.
    Roads are us. Roads are me. I am a road man, an engineer by 
education, a businessman by profession, a person that knows how 
to build roads, a person that has hauled millions of tons of 
coal to market on roads, and a person that has shared the grief 
of family and friends who have lost their lives on dangerous 
roads in the mountain with which Congressman Rahall is very 
familiar.
    I am from an area of the Nation that needs roads very 
badly, Appalachia. Only because of the Federal Government's 
support through the Appalachian Development Corridor does that 
part of our Nation even have a chance to participate in the 
prosperity that is modern America.
    I appreciate very much the opportunity to talk with you. I 
think I speak from a standpoint of knowledge and passion. I was 
fortunate enough 22 years ago to be able to retire from 
business and got into public service because of my devotion to 
roads, serving as the deputy secretary of the Kentucky 
Transportation Cabinet. As a county executive for ten years, 
roads were my primary focus. Even as governor, I find that one 
of my prime responsibilities is to make sure that our road 
program is working effectively and to address the concerns of 
citizens and businesses that need roads in their daily life.
    One of the most common opportunities I have to discuss with 
business people in my State is roads. I have business people 
come to me and say, ``Governor, I control almost all of my 
business. I control the work force. I buy the equipment. I 
control the property. But the roads are an integral part of my 
business, and I don't control them. And when I am involved in a 
traffic tie-up, it is making my business less efficient.'' We 
do everything that we can to try to address the specific needs 
of specific businesses that have particular problems that are 
making their business more inefficient. And we make an extra 
effort to do that. But I also have citizens that have similar 
problems that perhaps are even more dramatic because they do 
involve the safety of their family and their children.
    So this is an important issue. It is an appropriate role 
for the Federal Government. We certainly look forward to 
working with you and this committee on the reauthorization of 
TEA-21.
    This morning, I would like to speak more specifically to 
the funding level for this next year. I would acknowledge that 
from what I understand about the situation, this would be this 
$23 billion level of expenditure would be what would be 
calculated as the result of RABA in the TEA-21 law. As I say in 
my statement, a proper reply to a governor might be, ``Well, 
that is what you asked for, that is what you have, now live 
with it.'' And if governors were the only ones that were 
affected, that might be very appropriate. But governors are not 
the ones that are affected: it is businesses and people that 
are affected.
    So I strongly support your proposal for a minimum of $4.4 
billion additional appropriation to what I understand is a 
formula calculation, but let us urge you to maintain the level 
of spending at the current level of about $31.6 billion for the 
next fiscal year. Then as we go into reauthorization of the 
surface transportation programs, let's try to maintain a system 
that adds more stability to the program.
    As you may recall, I was very much involved with Governor 
Schaefer of Nebraska talking about the reauthorization of TEA-
21 some 5 years ago. At the time, I think we had a couple of 
objectives. One was to get all of the highway trust fund money 
spent on highways. Our goal that year was not only to get the 
recurring monies spent on highways, but also to get the reserve 
spent on highways. My understanding is that in previous years, 
when all of the money was not spent, there accumulated a 
balance of $19 billion or $20 billion that we attempted, at 
that time, to get spent over a period of years. We were not 
successful, but we were successful in getting the committee to 
be able to spend all current revenue.
    This is an excellent time to begin to work down some of 
what I understand to be an unappropriated balance in the 
highway trust fund. Our request would be a full maintenance of 
funding, which I think would require an additional $8.6 billion 
or so.
    Maintaining that continuity of expenditure was also a very 
important part of our goal 5 years ago and remains so. I would 
say that for another reason, for the maintenance of the effort 
of our economy to recover--and hopefully we are in a recovery, 
but if we are, it is very fragile. This reduction of the 
spending, which will begin this year, of $8 billion or $9 
billion, will affect the economy of my State. I submit it will 
affect the economy of every State. We estimate it will cost us 
5,000 good-paying jobs. Multiply that throughout the Nation and 
you are probably talking about 300,000 or 400,000 jobs that 
will be lost.
    And I want to emphasize that this reduction of activity 
will begin almost immediately because even though the Federal 
fiscal year starts in October, our fiscal year starts July 1, 
as does most States, and actually we are planning right now. We 
pre-finance Federal construction. As a matter of fact, just 
this year, my State is already being reimbursed $60 million for 
work that was done on the Federal Highway Program prior to 
October 1, that is, in the last Federal fiscal year, and only 
reimbursed.
    While I share Congressman Otter's concern about the money 
that is not being spent--and I will address that very briefly--
we do pre-advance a lot of Federal construction in Kentucky. I 
would submit that we are not talking about just the 
transportation jobs that will be lost, but rather the machinery 
equipment manufacturing business that--obviously, if this 
industry has got a capacity that is going to be 27 percent, 29 
percent, or 30 percent under-utilized, there is going to be 
very little need for additional construction equipment in the 
next year or two for this particular segment of the 
construction industry.
    So this cut in expenditure will directly translate into 
losses of jobs, not just in the construction industry, but also 
in the manufacturing industry supporting that construction 
industry, and in the retail industry's business that supports 
the workers in those industries. So for economic reasons, for 
the fact that we need to maintain our commitment to have a 
level level of investment--which means we can have stable 
employment in this industry--and the fact that we need to 
continue our commitment to catch up on our basic infrastructure 
upon which our businesses depend, I would urge the Congress to 
maintain the level of funding for next year at about $31.6 
billion, and then let us address the stability issue as we 
reauthorize TEA-21.
    I would echo Congressman Otter's remarks that there are 
some unnecessary delays that we would ask also to be considered 
in the reauthorization bill. And I think Kentucky is very 
environmentally conscious. Our major initiatives in the 
Legislature today are dealing with the environment. But it 
takes an average of 5 years for us to get from the beginning of 
a project to the construction stage, where there is an 
environmental impact required. I could relate to you several 
specific instances where the environmental restrictions are 
just all out of proportion to the environmental benefit that 
has been achieved.
    Let me go on to say that we are interested in safety. We 
appreciate the partnership where we can work together on issues 
of safety. But an overall request that the governors would have 
is, Tell us what you want us to achieve with your money and 
give us the flexibility to do it in the most efficient way. I 
think with many programs, the governors have demonstrated their 
commitment to follow through on Federal intent. Give us the 
flexibility. We will do a better job, we will do it more 
efficiently, and we will do it quicker.
    With that, Mr. Chairman and Ranking Member, again, I 
appreciate your audience and will be glad to discuss further 
some of these issues.
    Mr. Petri. Thank you very much for your testimony. I want 
you to know that this committee looks forward to continuing to 
work closely with the National Governors Association as we 
perfect and strengthen the robust investment in our 
transportation infrastructure.
    Your former colleague, the President of the United States, 
understands. Texas is a big State and they need good roads and 
lots of them, and other infrastructure. I had a chance to talk 
about this with the President on a trip he took to Wisconsin 
before the numbers came out. He indicated at that time that 
that was what he was told by the Budget Office that the law 
required. Our analysis is that that is not the case, that it is 
the minimum the law required, not the maximum. They could not 
have done a penny less, but they certainly could have done more 
under the staff analysis of this committee, our counsel, and I 
think some others in the transportation area.
    You had a chance to discuss this, with some of your 
colleagues, with the President lately. Has he indicated, from 
his point of view, that this is something they are willing to 
go to war over? Is there flexibility there? Maybe they were 
misled and just were doing what they thought the machine was 
requiring to do in their submission to this Congress.
    Could you comment on that?
    Governor Patton. I would admit that I do not know the 
details of exactly how this came about. But I understand there 
was some justification in the language to get to this point. I 
think the governors are very, very strong on this point--that 
is, a bipartisan coalition of governors--and many of them have 
taken the opportunity to address those concerns to the 
President and to his staff. On Monday, when we had the 
opportunity to visit with the President, it was my charge to 
bring this particular subject up. The President seemed very 
receptive. He seemed that he understood it, and I am sure that 
he did. Being a governor, I understood it. As a matter of fact, 
I concluded my remarks by assuring the President that we knew 
that he understood it, we just wanted to make sure that his 
staff understood it. I suspect that perhaps some of the staff 
are not as road-oriented as perhaps myself and members of the 
committee and as the President is.
    Mr. Petri. On a subject slightly unrelated to this, but 
very important, this committee is working on and trying to 
collect ideas on--and something that States have to be very 
concerned about as well--the gas tax highway trust fund concept 
relies on sort of a user fee concept, so that the more you use 
the roads, the more fuel you use, the more you pay in. But 
because of ethanol, because of different new ways of fueling 
vehicles and operating them, that concept is going to have to 
be modified or the tax base potentially broadened going down, 
or we are going to have trouble because not everybody is going 
to be using the road on an equal basis.
    So if there are any ideas that you or different States in 
your association have experimented with or thought about, we 
would be very eager to work with you on that. Our thought is 
that it is better to get something in place before, rather than 
imposing a tax on people afterward to try to catch up for 
something where they are using it and not paying for it.
    Any ideas you have would be much appreciated.
    Governor Patton. Ideally, funding a government service 
through a user fee, to me, is the ideal way to do it. You can't 
do prisons that way and you can't do social welfare programs 
that way, but you can do transportation. It is a pretty good 
method. It is not going to be perfect and it is not going to be 
equitable in every situation. We do have to recognize that with 
the increased fuel efficiency that we have realized in this 
country over the last 20 years we are not putting as much money 
in a mile traveled on our highways as we are getting traveled. 
That is, we have an increased mileage but we are not having a 
proportional increase in funding. I think that needs to be 
looked at. As you mentioned, the favorable tax treatment given 
to certain non-petroleum fuels achieves, I think, a good 
societal purpose. I would question, Do we do that by reducing 
the payment to the highway fund? Could we figure out how to 
achieve that societal purpose with another funding source?
    All of those are very complex problems, but the need for us 
to maintain modern infrastructure is very, very apparent. And I 
know the committee understands that fully.
    Mr. Petri. Thank you.
    Mr. Borski?
    Mr. Borski. Thank you, Mr. Chairman.
    Thank you, Governor, for an excellent presentation. And 
thank you for your work with the President. I think we need it, 
not only from a bipartisan effort of the governors, but a 
bipartisan effort of the Congress, both sides. I think everyone 
on this committee understands the importance of getting this 
money back.
    Governor, you mentioned in your statement that your--and I 
believe most States--fiscal year starts July 1 rather than 
October 1. What will you do--and what have you heard from other 
governors--if this low amount of money--is that what you need 
to plan your road building on?
    Governor Patton. We just will not award the contracts until 
we know we will have the money to pay the contractor when the 
work is done. We are already beginning to anticipate lower 
revenues, so we will be awarding fewer contracts this spring. 
Our custom is to award the contract, get them to work, go ahead 
and use State funds to pay that 3 months, and then my 
understanding of our Federal reimbursement is that we send you 
a big invoice in October and we get a pretty hefty refund 
pretty quickly.
    We sort of pre-finance a lot of our Federal construction to 
get it a year ahead of time. If we waited for the money, we 
would have to wait for a whole construction season.
    Mr. Borski. So you are anticipating at this point stopping 
work, or not going forward?
    Governor Patton. We just will not award as many contracts. 
We are awarding contracts all the time. We just will not award 
as many contracts as we anticipated. I personally only became 
aware of this potential reduction about a month or so ago.
    Mr. Borski. And are you hearing that from other governors?
    Governor Patton. Yes. It is an absolute fact that even 
though you all are talking about next fiscal year, the 
governors are talking about this fiscal year because of the 
construction season. If you do not get started this summer--you 
do not start in October.
    Mr. Borski. You indicated--and the chairman talked about 
this as well--that the President's budget proposal follows the 
mandates of TEA-21 by using criteria to calculate the funding 
proposal. TEA-21, however, does authorize an additional $15 
billion or $3 billion per year in non-guaranteed amounts to be 
available for the surface transportation programs. Could the 
President's budget have reflected additional amounts above the 
guaranteed firewalls?
    Governor Patton. Again, I am not familiar with the details 
of exactly how this calculation came about, but I certainly 
support a level funding for this one fiscal year so we can see 
exactly how we can stop these big swings from occurring through 
our reauthorization.
    Mr. Borski. I would like to talk a minute or two about your 
proposal to spend down the trust fund. We have tried that 
around here for a number of years. Staff reminds me that in 
1978 the committee was faced with a similar situation and we 
tried to use the unspent balance in the trust fund, and that 
was totally rejected by the Ways and Means Committee. I am not 
sure we could fare any better now, to tell you the truth.
    But CBO does estimate that continuing to push the program 
in the $32 billion to $35 billion range will push the trust 
funds into a deficit by 2006, while current service in the 
range of $28 billion to $32 billion range would maintain a 
stable balance. I believe we need to ensure that the trust fund 
can sustain a healthy program after 2003, and that is part of 
our concern as well.
    Do you have any comments on that?
    Governor Patton. Again, let me say that I think stability 
is very, very important. Consistent funding, particularly for 
this kind of industry, is very, very important because you put 
a big hunk of money into your engineering firms, for instance. 
They design and they hire a lot of engineers to get the work 
done. Then you have a funding lull and they have to downsize 
their staff. It is very inefficient for a construction company. 
They have to go out and buy equipment to perform at this level. 
And when you have to let equipment sit for a year, you have 
really lost some money. Their money comes from working that 
equipment.
    So in this industry it is very important that there be 
stability in funding for a lot of reasons. I think that needs 
to be a real goal as we go into the reauthorization.
    Mr. Borski. I know in Pennsylvania, we have a pride in 
keeping our engineers in State employment and not leave to go 
to greener pastures. With an instability in the funding level, 
perhaps more of them will go. Is that a reoccurring problem for 
you, as well?
    Governor Patton. True.
    Mr. Borski. I noticed in your statement--and I wanted to 
applaud you for your enactment of highway safety laws, such as 
the .08 BAC and open container laws. Unfortunately, several 
States have not been as aggressive as you and the State of 
Kentucky in taking advantage of the incentive programs. You 
mentioned in your testimony that we should maintain the carrot 
rather than the stick approach. But at what point should we use 
the stick, if people are not complying?
    Governor Patton. I always prefer the carrot. It is much 
more palatable politically. It gives State legislators more 
cover for taking actions that some might object to you when you 
can say that by doing this we can get this. It just goes down 
better than saying that if we don't do this, we will have this 
taken away from us. I think that the carrot is more effective. 
But that does give State legislators more of a cover to do some 
of these things that all of us know need to be done, but there 
might be some people that are very vocal that would object to 
it.
    Mr. Borski. Thank you.
    Mr. Petri. Thank you.
    Questions on this side?
    Mr. Thune?
    Mr. Thune. I don't have any questions at the moment, Mr. 
Chairman, but I would submit a statement for the record. I 
appreciate your holding this hearing. This is an issue that is 
of extreme importance in my State. We have lots of highways and 
lots of miles to cover. We want to make sure that we have the 
adequate funding levels in place, not only this year, but as we 
head into the future and we start looking at the 
reauthorization. I appreciate your holding this hearing and the 
witnesses.
    Governor, thank you for being here and for testifying.
    Mr. Petri. Your statement will be made a part of the 
record.
    Mr. Isakson?
    Mr. Isakson. I have just one question, Governor.
    I saw in your remarks talking about the time it takes to 
get environmental approval. You were referring to a clover, if 
I remember correctly, in your written testimony.
    Do you have any suggestions on what we might do to 
expedite, and what do you see as the biggest problem giving the 
environmental approvals? Is it inner-agency? Is it lawsuits? 
What is your experience in Kentucky?
    Governor Patton. I couldn't address it in detail. I have 
some people with me that might, if you wish. But I do know that 
it takes a lot of time. I have been talking to my secretary 
time after time after time. Why is this project taking 3 or 4 
years? The answer is environmental. The details are the kinds 
of things that I talked about in my written remarks. I know of 
another situation where we have wetlands. I have a legislator 
raising all kinds of Cain with me and the secretary over an 
environmental issue that he just doesn't comprehend. He just 
doesn't understand it. It is a major problem and I have experts 
with me who can go into more detail, if you wish.
    Mr. Isakson. I have come to the belief that we need to 
create some system for environmental concerns--particularly 
when it comes to the litigation period and you can't abrogate 
anybody's rights to go to court--but it seems like it can be 
abused to the point of delaying projects or final decisions 
forever. I am one that sort of subscribes to the belief that we 
ought to create some type of a one-shot arbitration system 
before litigation to try and mediate some of these 
environmental problems brought out by outside groups, not the 
agencies necessarily. I would love to see--if your people have 
any suggestions along that way, please send it to us at the 
committee. We are getting into some 5-to 10-year episodes that 
are just exasperating.
    In our State, the clean air problems we are trying to fix 
by improving capacity, improving interchanges, the stop-and-go 
traffic. I think somewhere along the line we have to find a 
mechanism where a meeting of the minds can come faster and less 
litigious to expedite these projects. So I would love any input 
your commissioner or other highway people might have, or your 
environmental agency, for that matter.
    Governor Patton. I will have that prepared, not only for 
Kentucky, but also for the National Governors, and then give it 
to you and the committee.
    Mr. Isakson. Thank you, Governor.
    Mr. Petri. Mr. Mascara?
    Mr. Mascara. Thank you, Mr. Chairman.
    Welcome, Governor. I note from perusing your testimony that 
there are some similarities between our careers. I came from 
business. You were Deputy Security of Transportation. As 
Washington County Commissioner, I was the chairman of the 
southwestern Pennsylvania Regional Planning Commission that did 
planning for Southwestern Pennsylvania. I note that you were a 
county executive and I was chairman of the Board of Washington 
County Commissioners for 15 years. I don't equate my membership 
in the House with your governorship, but certainly I am now a 
Member of Congress.
    It has been opined that Frank Mascara would build a road to 
anywhere. So I guess you get an idea where I come from because 
I simply believe that studies around the world have shown a 
strong correlation between investment in infrastructure and 
economic development. As long as I have been reading from other 
countries around the world who have made large investments--I 
recall that when we did ISTEA and TEA-21 that someone said $240 
billion and $250 billion--that is a lot of money--and it is. 
But the Japanese will spend $1 trillion over the same 6-year 
period. So we really have some catching up to do with some 
other countries around the world.
    I want to get back to what Congressman Borski touched on 
concerning the proposed cuts as a result of the Treasury's 
calculation of anticipated revenues from gasoline taxes, and 
that ethanol does not produce the same kind of tax that regular 
gasolines produce. What effect has that had on Kentucky? 
Congressman Rahall and I work very closely on transportation 
and I had a note from one of his staff. Perhaps you would want 
to touch on that.
    The 50 States are being hurt by the proposed budget cuts to 
the Federal Highway Program. You and I both come from 
Appalachia States. We have been working to improve the economy 
in Appalachia and one method is to continue to build roads and 
to promote interstate commerce.
    How detrimental do you see the proposed highway budget cuts 
to your plans to reinvigorate the economy in the distressed 
counties in Appalachia?
    Governor Patton. You correctly understand that our highway 
infrastructure is an integral part of our industrial capacity. 
It is just that part that we pay for commonly through our taxes 
and expect our governments to construct for us. You understand 
it, as do I.
    If you do an analysis of the small towns in Kentucky that 
have done well, it is the towns that are on the interstate. The 
ones that are atrophying a little bit are the ones that do not 
have good access to interstates. We can ameliorate that by 
building them a good four-lane access to the interstate, if we 
have the money. Unfortunately, we did not build the interstates 
through hardcore Appalachia. Where I live, we sort of went a 
little north to get away from the steep mountains or we went a 
little south to get away from the steep mountains. But we did 
not take I-64 straight from Lexington to Washington right 
through my hometown. We did not take the most direct route. 
That has resulted in isolation.
    The Appalachian Development Program is our only hope to get 
away from that permanent isolation that the lack of interstates 
in hardcore Appalachia has produced. I just cannot 
overemphasize how important that it is.
    Mr. Mascara. Given that the country's economy is in a 
decline, you would think that we would want to continue to 
spend at a level that would certainly create more jobs. In 
Pennsylvania, the proposed cut equates to approximately 14,000 
job losses in Pennsylvania. I suspect you will experience the 
same thing with those cuts.
    Governor Patton. We are a little smaller than Pennsylvania, 
but 5,000 jobs means just about as much to our economy as 
14,000 does to Pennsylvania, sir.
    Mr. Mascara. Thank you, Governor. Thank you for coming.
    Mr. Petri. Thank you.
    Representative Capito?
    Mrs. Capito. Thank you.
    Governor Patton, I represent the State of West Virginia, as 
well as Mr. Rahall. I have three questions, I will just kind of 
give you the questions and you can answer in order.
    You sort of touched on the last one, the isolation created 
by lack of roads in certain areas. We certainly feel that in 
West Virginia.
    You may be familiar with a controversy that is not really 
Federal, but in our State right now, the weight of coal trucks 
and how to enforce the law or raise the weight limits on the 
trucks. I am interested to know how you have addressed that 
issue in Kentucky.
    Another question is in assessing the grand needs that we 
have in West Virginia to build roads and the lack of Federal 
and State funds to meet all of those needs. One of the 
suggestions that has come out of our State Legislature is to do 
a private/public partnership in terms of building toll roads. I 
wonder if you have considered that in Kentucky.
    And the last question really was close to what Congressman 
Mascara asked, so I will just leave it at those two--overweight 
coal trucks and toll roads.
    Governor Patton. I do know the coal business. I was in it 
for 20 years and we did haul a lot of coal. Because of the lack 
of rail, we began hauling it by truck. And because of the 
economy, they started hauling overweight and it has grown 
totally out of proportion. It is a problem, but local officials 
just will not put people out of business.
    I proposed a program a couple of years ago to get it to a 
reasonable limit, and I could not get that passed through the 
Legislature. I know that you are considering the subject in 
West Virginia. It is a subject that most States need to address 
and I have asked my Legislature to do that.
    As to the subject of toll roads--and we have built a lot of 
them in Kentucky--I am not a big fan of them. It is a very 
expensive way to get revenue. It means that people using 
certain roads will be charged a greater fee than people who 
have other roads that have been built by the general fund of 
road money. I pay for my gas tax just like everybody else, and 
then I have to pay an additional fee. So I am not a big 
proponent of tolls, generally. In Kentucky, they really never 
generated enough money to even begin to actually pay for the 
roads. At times, we were spending 50 percent of the money 
collected just for the wages of the people that collected it. I 
am not a big proponent of tolls.
    Mrs. Capito. Thank you.
    Mr. Petri. Thank you.
    Representative Millender-McDonald?
    Ms. Millender-McDonald. Thank you, Mr. Chairman and the 
Ranking Member. I am very appreciative to both of you convening 
this meeting.
    Thank you, Governor, for being here this morning. I am 
encouraged by you being here. You are the voice for other 
governors.
    I know we have a vote on the Floor. We just say thank you 
and thanks to all of those who have come this morning from 
local governments and State governments to come and really talk 
about how TEA-21 has made such an impact in your States.
    I am from California. Of course, it has made a tremendous 
impact with my State.
    We thank you. We hope that you continue to walk with us as 
we walk through this. Again, thank you so much for being here.
    Mr. Chairman, I have a statement. I will not have any more 
questions.
    Mr. Petri. Thank you. Your statement will be made a part of 
the record.
    Governor, thank you very much for your testimony. We do 
look forward to working with you and your associates.
    There is a vote on the House Floor. It is the only vote of 
the day, I am told. Representative Kelly was kind enough to go 
over. I think she is probably on her way back by now. We would 
like to ask the second panel to organize themselves at the 
table and we will probably begin as soon as Representative 
Kelly returns, which should be no more than 5 to 7 minutes from 
now. We will recess until her return.
    [Recess.]
    Mrs. Kelly [assuming Chair]. Thank you very much for being 
here today. We welcome the second panel.
    First we will hear from the Honorable Kenneth Barr, the 
mayor, representing Fort Worth, Texas and the U.S. Conference 
of Mayors. Second, we will hear from the Honorable Chris Hart, 
county commissioner, representing Hillsborough County, Florida 
and the National Association of Counties Transportation 
Steering Committee. Next we will hear from the Honorable Sandy 
Greyson, councilmember, representing Dallas, Texas and the 
National League of Cities. After that, we will hear from the 
Honorable Karen M. Miller, county commissioner, representing 
Boone County, Missouri and the National Association of Counties 
Executive Committee. Finally, we will hear from Maria Lehman, 
commissioner of public works, on behalf of the Honorable Joel 
Giambra, county executive of Erie County, New York.
    I know Congressman Quinn, who I think is coming back, had 
wanted to make a statement welcoming you here, Ms. Lehman. We 
will let him do that when he does arrive. I know you all have 
planes to catch, so in order to get this committee moving, we 
will get started. We are glad to have you here and we welcome 
your testimony.
    Mr. Barr?

TESTIMONY OF HON. KENNETH BARR, MAYOR, REPRESENTING FORT WORTH, 
  TEXAS, AND THE U.S. CONFERENCE OF MAYORS; HON. CHRIS HART, 
COUNTY COMMISSIONER, REPRESENTING HILLSBOROUGH COUNTY, FLORIDA, 
    AND THE NATIONAL ASSOCIATION OF COUNTIES TRANSPORTATION 
    STEERING COMMITTEE; HON. SANDY GREYSON, COUNCILMEMBER, 
REPRESENTING DALLAS, TEXAS, AND THE NATIONAL LEAGUE OF CITIES; 
 HON. KAREN M. MILLER, COUNTY COMMISSIONER, REPRESENTING BOONE 
  COUNTY, MISSOURI, AND THE NATIONAL ASSOCIATION OF COUNTIES 
 EXECUTIVE COMMITTEE; AND MARIA LEHMAN, COMMISSIONER OF PUBLIC 
 WORKS, ON BEHALF OF HON. JOEL GIAMBRA, COUNTY EXECUTIVE, ERIE 
                        COUNTY, NEW YORK

    Mr. Barr. Thank you, Madame Chairwoman and members of the 
subcommittee. I am Kenneth Barr, the mayor of Fort Worth, 
Texas. I am here to appear today on behalf of the United States 
Conference of Mayors, where I serve as Chair of the 
organization's Transportation Committee.
    I want to thank the members of the committee for holding 
this panel and giving us the opportunity to speak about the 
reauthorization of TEA-21.
    Last month, when Boise Mayor Brent Coles testified before 
the Senate Environment and Public Works Committee, his 
statement highlighted a number of issues pertaining to the 
economic importance of cities in the reauthorization of TEA-21. 
As a starting point, I want to emphasize a statement by Mayor 
Coles, which captures the Conference of Mayors' broader view on 
TEA-21 reauthorization. He said, ``TEA-21 certainly provides 
the tools and the laboratory, but it doesn't guarantee success. 
This is up to the mayors and the other local officials working 
with citizens, the governors and State transportation officials 
to use the tools you have provided.''
    I know that TEA-21 has been classified and is an 
innovative, problem-solving tool that has improved the quality 
of life for millions of citizens both in large cities and rural 
towns in America. I would like to call your attention to 
several emerging issues that have considerable bearing on this 
committee's review of the TEA-21 reauthorization.
    Since 1999, the Conference of Mayors has released annual 
data prepared by Standard & Poor's DRI, which measures the 
gross metropolitan product for the Nation's city/county metro 
areas. As the focal points of economic activity, metropolitan 
areas are vital to the Nation's continued economic development.
    If they were counted as a single country, the gross product 
of the five largest metropolitan areas in the U.S. would rank 
fourth among the world's economics. The importance of metro 
area economies can also be illustrated by their size relative 
to the output of U.S. States. The gross product of the ten 
largest metropolitan areas exceeds the combined output of 31 
States. In the study, we found that 47 of the top 100 economies 
in the world are U.S. city/county metro areas.
    To give you a local perspective, the Fort Worth/Dallas 
metropolitan product is larger than Greece, New Zealand, Iraq, 
and Vietnam combined. And between 1990 and 2000, city/county 
metro economies contributed 86 percent, or more than $3.6 
trillion, of the growth in the Nation's economy.
    The correlation between continued national economic growth 
and urban transportation investment is clear. Strengthening 
that correlation is that the fastest growing segments of the 
U.S. economy, including business services and high-tech, are 
almost entirely located within metro areas. In addition, over 
the past decade, the majority of new jobs in the financial 
services and transportation and utilities sectors have been 
created in our metro areas. Continued economic growth requires 
strong transportation investment in cities.
    The implications of this information for Federal and State 
policymakers are far reaching. There is no doubt in my mind 
that the resources provided by ISTEA and TEA-21 have played a 
significant role in the economic vitality of cities in metro 
regions. ISTEA and TEA-21 success stories are many. CMAQ has 
spurred innovative projects in cities across the Nation to 
improve air quality. In Fort Worth, we were able to combine 
CMAQ and surface transportation program funds provided through 
our Council of Governments to promote mixed-use development 
projects along four key corridors of the city. The successful 
transportation enhancement programs have created new bicycle 
facilities and have promoted community-based transportation 
initiatives.
    The Job Access and Reverse Commute Program is more 
important than ever with the Bush Administration proposing 
revisions to the 1996 law that overhauled the welfare system by 
increasing work requirements on people who get government 
assistance. The Transportation and Community and System 
Preservation Pilot Project encourages cities to make new 
linkages between land use and transportation. This is a linkage 
that is working.
    Cities have enjoyed the fruits of ISTEA and TEA-21, yet, 
despite the progress, there are still areas of concern. The 
U.S. Conference of Mayors recently surveyed a group of 40 
mayors to solicit their general views on how TEA-21 is working. 
Nearly one-half of the mayors indicated that under TEA-21 their 
State had committed additional funding, or planned to commit 
additional funds, to local projects of particular priority to 
the State or the region. When we asked if their MPOs had set 
any targets for fair share funding under TEA-21, one-half of 
the respondents said yes.
    Based on the survey, it appears that States are reaching 
out to local governments under TEA-21. However, only 40 percent 
of the mayors had been asked to participate in the State 
process to decide funding priorities for TEA-21 dollars.
    The area of concern highlighted by the survey of mayors is 
that often we are not at the State table when funding 
priorities are finalized.
    Mrs. Kelly. Mr. Barr, your time is up. The red light is 
blinking. I don't know if it was explained to you that we have 
5 minutes for each of you to summarize your testimony. Your 
full written testimony is a part of the record. So if you could 
summarize, I would appreciate that.
    Mr. Barr. Thank you.
    If there is one point I want to leave with the subcommittee 
today, it is that when you consider the very impressive 
economic performance of my region and the other metropolitan 
regions across the United States, you can understand why it is 
so important that we be at the table when the funding and 
priority decisions are made.
    Let me just ask you for a moment to comment on the 
President's 2003 Highway Program. The impact of such a cut 
would be devastating to State and local transportation 
programs. The Conference of Mayors supports the Highway Funding 
Restoration Act that would increase the budget at least back to 
the $27.7 billion level. The chairman referred earlier to the 
letter from the eight local governmental organizations 
supporting H.R. 3694. The Conference of Mayors strongly 
supports that.
    Thank you very much for the opportunity to appear here 
today.
    Mrs. Kelly. Thank you very much for your testimony.
    Just to explain the lights, there is a timing system that 
we have control of up here. The green light means you have 4 
minutes, the yellow light means you have 1 minute to summarize, 
and when the red light starts to blink, it means you are well 
over your time. I would like to try to hold that timing factor 
in your testimony.
    Please do understand that your full written testimony is 
already a part of the record and many of us have read it in 
full. So anything you would like to do to summarize it will be 
good.
    Thank you very much.
    We move now to Mr. Hart.
    Mr. Hart. Good morning, Madame Chair and members of the 
committee. I am Chris Hart, commissioner of Hillsborough 
County, Tampa, Florida. I am here as the Chair of the 
Transportation Steering Committee for the National Association 
of Counties. I appreciate the comments of the previous speaker 
and also Governor Patton. You will find a great thread of 
continuity between our comments.
    Based on Madame Chair's guidance, I will quickly go from 
telling you what a great place I come from and go right to the 
heart of the matter. I was only going to use that as reference, 
since it is testimony, to let you know that I am from a dynamic 
community that has all the complexities of urban, suburban, and 
rural regions. All the transportation systems that I have my 
hands on on a daily basis are no different than those I 
represent at the national level working with people across 
America representing America's over 3,066 counties.
    Karen Miller, our Vice Chair, will be following me later, 
and will address the rural aspects of TEA 21 reauthorization in 
separate comments.
    To summarize, there are about 1,000 local governments that 
are urban counties. Much like the mayor was talking about, your 
metro centers, in many cases--city, county governments, like my 
home in Tampa Bay, accounts for 80 percent of the gross 
domestic product and have over 125 million people in just 100 
of the most populous counties in America.
    ISTEA--starting in 1991 and now TEA-21--provided a 40 
percent boost in the funds that are relevant to what we are 
exactly addressing here today. So we have seen the benefits of 
this. And very directly is an example in 2000 in my area of 
Tampa Bay--which is seven counties and 3.5 million people--we 
were able to have $1 billion--``B'' as in big--allocated to our 
area to improve State, local, and Federal transportation 
systems because of TEA-21. I think that is a significant point 
that each of the members have been asking about here.
    We believe that there would be an economic disaster if 
Congress were to eliminate the firewalls established in TEA-21 
or begin to use the trust fund for other programs or to mask 
the deficit. Madame Chair and members of the committee, the 
financing decisions made in 1998 were the right ones.
    With that as a backdrop, I would just like to simply say 
that NACo supports H.R. 3694 and S. 1917, which Chairman Petri 
had mentioned. Seven or eight local organizations support these 
bills.
    But it is just not how we find this effective. A funding 
reduction would include the Surface Transportation Program and 
a flexible program that many regions had used to fund transit 
improvements. As we have established our own reauthorization 
committee, we are now finalizing our recommendations. But I can 
tell you without reservation that one of our top issues will be 
environmental streamlining. But let me be clear. We are not 
talking about any change or reductions or repeal of 
environmental protection laws. We are talking about ensuring 
that the system we have is timely and efficient. And this would 
look at concurrent permitting, not sequential permitting, 
regardless of the agencies involved. That is key.
    Another part of this is certainly the flexibility we have 
had under TEA-21 that has made this all possible. We are able 
to make better decisions, and we get right to the very issues. 
As the growth patterns of American populations have changed, we 
are able to better match or lead these changes with 
transportation decisions at the local level based on the 
discretion and guidance TEA 21 has given.
    There are a couple of quick issues I would like to 
address--and I see the yellow light--congestion. That is going 
to be a key issue and there are ways to address that. One part 
of that is obvious: because it involves our tourists, citizens, 
and commerce. That is the key to why we must address 
competition. And 50 percent of this occurs because of 
breakdowns and accidents on our highways. So incident 
management, which can be done at little cost, but directed in 
your legislation, would be key to that.
    Another key is signalization, or intelligent transportation 
systems. The reason is that at the local level throughout 
America, we get an eight to one return on that investment by 
reducing congestion.
    I wish I had another 5 minutes to talk about transit. We 
believe the firewalls created to protect that funding are 
important and that the basic highway transport funding ratio of 
four to one should be continued. There is no backing away from 
these principles.
    In conclusion, flexibility is a keystone of the transit 
program and the ability for us to work with our State to get 
the best results in this.
    With that, Madame Chair, this concludes my testimony. I 
look forward to your questions. Thank you.
    Mrs. Kelly. Thank you very much, Mr. Hart. We appreciate 
your awareness of the time limit.
    Ms. Greyson?
    Ms. Greyson. Thank you, Madame Chair and Ranking Member 
Borski. I am pleased to have the opportunity to appear before 
you today to discuss such an important issue for the Nation's 
cities. I am Sandy Greyson. I am a city councilmember from 
Dallas, Texas. I am pleased to be here today with my friend, 
Mayor Barr, not only as a Texan but also as a representative of 
the National League of Cities.
    The National League of Cities represents 18,000 cities and 
towns and over 140,000 local elected officials. NLC represents 
all cities, regardless of size. Our largest member is New York 
City with a population of 8 million and our smallest member is 
DeGraff, Minnesota with a population of 149. As the 
representative of the Nation's local leaders, NLC has a vital 
interest in the reauthorization of TEA-21.
    Last year, the TIS Committee of NLC appointed a special 
TEA-21 Reauthorization Task Force to examine TEA-21 issues and 
their impact on cities. I served as Chair of the task force, 
which recently completed a year-long rewrite of our surface 
transportation policy, which was adopted by our full membership 
last December at our annual meeting. I would like to submit 
NLC's 2002 transportation policy for the record.
    In addition to representing NLC today, I am here on behalf 
of my city, Dallas, where I have served on their Council's 
Transportation Committee as Chair and a number of 
organizations.
    Madame Chair, as we embark on the reauthorization process, 
we must take into account the current climate in Washington, 
D.C. and the Nation. These are tough economic times and in the 
aftermath of September 11th, local officials are shifting 
priorities.
    Therefore, we are very concerned that the President's 
budget calls for a severe nearly $9 billion reduction in TEA-21 
funding. The Nation cannot afford to lose thousands of jobs by 
indefinite project postponements and possible cancellations if 
the program is so drastically cut. In my State alone, it is 
estimated that Texas may lose over $560 million in vitally 
needed Federal transportation dollars.
    This week, NLC joined our local partners to issue a letter 
to Congress supporting the Highway Funding Restoration Act, 
H.R. 3694, which would increase funding by $4.5 billion to 
$27.7 billion in 2003, the level authorized by TEA-21. The 
Nation's local leaders would like to thank members of the 
subcommittee and Chairman Young and Ranking Member Oberstar of 
the full Transportation and Infrastructure Committee for 
sponsoring this important legislation. We pledge to work with 
you to ensure its passage. In addition, we plan to work with 
the House and Senate appropriators to ask for at least 2002 
level funding for the program in 2003.
    Madame Chair, as we pledge to work together to protect the 
funding levels of this vital infrastructure program, the 
Nation's local elected officials would also like to highlight 
some key priorities for the next surface transportation bill.
    Following the events of September 11th, it has become clear 
that security issues will have to be a priority in TEA-21 
reauthorization discussions. As cities across the Nation shift 
valuable resources to an increased public safety budget to 
protect our citizens, the question becomes, What will the role 
of the next Federal surface transportation program be in 
homeland security? Will the Federal Government be able to offer 
greater assistance to cities to meet their needs? In my city 
alone, we have spent approximately $3.2 million on heightened 
security following the events of September 11th.
    NLC recently created a working group on homeland security 
to try to answer some of these important questions and to help 
better define the new role of local governments in national 
defense and what those new responsibilities require in terms of 
Federal support, intergovernmental partnerships, and local 
budgets.
    In addition to security, NLC members identified congestion 
as a major concern when they created the TEA-21 task force. The 
themes of funding, flexibility, and intermodalism dominated the 
discussions. On funding, NLC supports the budgetary mechanisms 
developed in TEA-21, which directly link transportation user 
fees to transportation funding and protect highway trust fund 
revenue from being used for non-transportation purposes.
    In addition, NLC supports the Federal-State matching 
financial relationships that currently exist and oppose any 
reduction of the Federal financial commitments. On flexibility, 
NLC supports local flexibility to design, manage, and operate a 
city's transportation systems. To continue to provide the most 
options to local governments, NLC supports the continuation of 
CMAQ, Transportation Enhancements Program, the Transportation 
and Community and System Preservation Pilot Program, and the 
ITS Program. These programs have made a huge impact on 
localities and had a positive effect on quality of life.
    We urge the subcommittee to consider the development of a 
congestion relief program that recognizes that congestion is a 
local issue and provides direct funding to cities and regions 
of all sizes to address related problems in their communities. 
We strongly support Federal programs that fund different 
transportation modes, such as the Federal transit and rail 
programs.
    In addition, NLC also supports the development of 
intermodal facilities to help create a seamless, uninterrupted 
transportation network.
    In conclusion, the Nation's local elected officials stand 
ready to work with you throughout the reauthorization of TEA-
21. We value our place at the table and value the efforts you 
are making to address this bill.
    Thank you for this opportunity.
    Mrs. Kelly. Thank you very much, Ms. Greyson.
    Now we move to Ms. Miller.
    Ms. Miller. Thank you, Madame Chair and members of the 
committee. I am Commissioner Miller from Boone County, 
Missouri. Today I am here to speak on behalf of the National 
Association of Counties where I serve as its first vice 
president.
    NACo has a diverse membership. Today I will be addressing 
issues relating to rural counties. Of the 3,066 counties, 2,000 
are rural and they have approximately 1.65 million miles of 
county-owned highways. Counties also own 45 percent of the 
Nation's bridges, most of which are located on our rural 
system.
    It is extremely expensive to maintain and improve this 
system. Many of the 2,000 rural counties try to do so with a 
dwindling tax base so that they can remain competitive in 
today's economy and retain their current population. NACo 
believes that TEA-21 reauthorization must include a commitment 
to rural regions and rural elected officials because rural 
local governments cannot sustain a good transportation 
infrastructure by themselves.
    This is really about economic development and its impact on 
rural counties. I think we know that many of our citizens will 
not remain in rural areas without good jobs, and employers who 
pay good salaries will not come to a community without a good 
transportation system. It is also about safety and protecting 
our citizens who travel on rural roads.
    Counties have benefitted from the funding increase for 
transportation in TEA-21. The firewalls need to stay in place. 
The policy reflected in the Administration's 2003 highway 
budget is not the direction in which we should be moving. NACo 
believes that more, not less, highway spending is needed and 
that rural regions of our country will be hurt by the proposed 
$8.6 billion cut. I expect many of our counties will also be 
facing reduced State aid, and that means fewer dollars for 
transportation. For all these reasons, NACo supports H.R. 3694, 
the Highway Funding Restoration Act.
    Beginning with ISTEA and continuing with TEA-21, a major 
philosophy in the highway and transit programs has had greater 
input from local elected government officials. The result has 
been better planning, better decisionmaking on project 
selection, and better projects. TEA-21 called for a 
consultation process in each State for obtaining rural local 
officials' input in a statewide transportation plan. This was 
not a one-size-fits-all proposal, but rather an effort to 
ensure that rural elected officials had some voice on how 
Federal funds are to be spent. No one has ever explained to me 
why an urban elected official is more qualified to be heard on 
project selection than a rural official.
    I must add that while some States have a process in place, 
and the Federal Highway Administration did issue guidance on 
this change to its field offices, the USDOT has yet to issue 
final regulations on rural planning requirements. It has been 2 
years since USDOT issued the proposed regulations. We very much 
hope this issue can be resolved so that it does not carry over 
to the reauthorization.
    NACo has a TEA-21 Reauthorization Task Force that has met 
several times. While we have not finalized our policy, there 
are a number of items that I expect to be included. I have 
already mentioned guaranteed funding, the firewalls, and the 
rural planning process. Environmental streamlining is also 
likely to be included.
    Rural roads are in need of substantial Federal investment. 
Safety is the primary reason. According to a U.S. General 
Accounting Office report issued in July 2001, rural local roads 
had the highest rate of fatalities per vehicle mile traveled of 
all types of roadways--over six times that of urban 
interstates. In 1999, over 25,000 fatalities occurred on rural 
roads across the United States, and that figure was 2.5 times 
greater than the fatality rate from accidents on urban 
highways.
    In Missouri, 72 percent of the fatalities in the State 
happen outside the Kansas City and St. Louis metro areas. If 
Congress wants to reduce auto fatalities, there is no better 
investment than on roads in rural counties.
    NACo will be proposing a new program to address rural road 
safety in the coming months. The concept behind this program 
will be to focus Federal resources on dangerous two-lane rural 
roads that can be improved through investment and correcting 
vertical and horizontal alignment, signage, pavement markings, 
and other safety improvements.
    The Federal Bridge Program has always been one of 
importance to rural counties, and this subcommittee has 
demonstrated great support for it. Frankly, there cannot be 
enough funding for deficient bridges. Forty percent of the 
bridges in Missouri under the responsibility of local 
governments are either functionally obsolete or structurally 
deficient. In particular, we support what has been known as the 
Off-System Bridge Program. That is a percentage NACo believes 
should be increased to at least 25 to 30 percent of the Federal 
fund.
    Let me comment, finally, on transit in rural areas. Transit 
is commonly perceived as an urban issue. However, it is also a 
rural issue and the Federal Rural Transit Program is very 
important to our members. The many small transit agencies 
serving rural America make a difference, particularly as the 
population ages. While $225 million does not seem like a lot 
out of an annual $7 billion transit program, it goes a long 
way. Transportation needs to be available because counties are 
responsible for getting individuals off welfare and into the 
job market.
    Madame Chair, this concludes my testimony. Thank you for 
allowing us to testify before you today.
    Mrs. Kelly. Thank you very much, Ms. Miller. We move to Ms. 
Lehman now.
    Ms. Lehman. My name is Maria Lehman and I am the 
Commissioner of Public Works for Erie County, New York. I am 
also currently the Vice President of the American Society of 
Civil Engineers.
    Erie County is a large upstate New York county with a total 
area of 1,048 square miles, and home to New York State's second 
largest city of Buffalo. As the rest of the country enjoyed the 
economic boom of the 1990's, upstate New York saw little to no 
growth.
    As commissioner, I have the responsibility for 2,440 lane 
miles of Erie County roadways. Roughly half of those are on the 
Federal Aid system. Within the system, there are 300 bridges 
and 400 culverts, 58 percent of which are structurally 
deficient or functionally obsolete. Fifty percent of our 
roadway system is in fair to poor condition.
    I applaud this committee for your leadership in the 
introduction of H.R. 3694 on February 7. In doing so, you made 
a pronouncement that now is not the time to cut highway 
investment. I urge you, as you deliver this bill as a 
committee, that you consider the amount as a bargain basement 
amount.
    The RABA impact to New York will be a cut of funding of 
over $345 million in fiscal year 2003. This equates to a job 
loss of over 14,500. When you consider the devastating effects 
of September 11 on the New York State economy, as well as the 
infrastructure rebuilding costs in New York, this cut will have 
a very severe impact on the entire State, especially in the 
upstate area because rebuilding will occur in Manhattan.
    As we are looking at reauthorization, I can summarize 
priorities in three separate areas: expanding infrastructure 
investment, enhancing infrastructure delivery, and maximizing 
infrastructure quality.
    Infrastructure investment needs to be expanded just to keep 
up with the backlog of work. A reliable, sustained user-fee 
approach to building and maintaining the Nation's highways and 
transit systems is integral to our economic prosperity. Current 
needs without capacity improvements are in the $50 billion 
range for annual Federal investment.
    Serious consideration should be given not only to indexing 
the Federal gasoline tax to preserve the purchasing power of 
the user fee, but also to increase this user fee. The trust 
fund balance needs to be managed to maximize the investment in 
infrastructure and to keep cash balances at the minimum 
required level, as opposed to carrying ever-increasing amounts. 
Taking the trust funds off budget will preserve firewalls in 
the program.
    We also need to maintain guarantees on the equitable 
distribution of funds with a greater focus on infrastructure 
preservation. Infrastructure in the northeast is the oldest in 
the country, and due to the relatively level or decreasing 
populations, there has been great pressure to have all the 
funding follow the census. That can have devastating effects in 
our area as it mortgages a problem into the future.
    Innovative finance also has a major role in the ability of 
States and local municipalities to meet great backlogs of 
needs. Things like the State Infrastructure Banks, TIFIA, and 
Garvey need to be expanded and complimented with other similar 
programs.
    Due to the successful implementation of the Metropolitan 
Planning Organizations over the past 2 decades as urban area 
coordinators of Federal aid programs, consideration should be 
made to having the MPOs get some of the Federal aid directly 
from Federal aid programs. This would put the source of money 
directly, and project administration costs close to product 
delivery, thus making more effective use of funding and 
stretching the value of every Federal dollar.
    One concern I have on the revenue side of the house is the 
effect of ethanol on revenues and how this bodes in the future 
with fuel cell technology. The reauthorization will need to 
address the incentives to decrease our country's dependence on 
gasoline, while providing for single occupancy vehicles and the 
mobility to which we have all grown accustomed. Fuel cells are 
the future, but incentives will be required to change the 
paradigm. We need to facilitate this change with a look to the 
future horizon and how to support our Nation's surface 
transportation without gasoline taxes.
    Enhancing infrastructure delivery boils down to getting the 
best bang for the buck. There are serious issues currently that 
need to be addressed to expedite project decisionmaking, 
consistency between agencies--and in some cases within 
agencies--and providing time lines for project review and 
delivery. We need to find ways to deliver projects more 
quickly, procure faster, provide alternative delivery of 
projects, expedite regulatory decisionmaking, remove delays, 
and spend more money on steel, concrete, and construction 
materials and not on paper.
    Environmental streamlining needs to be seriously addressed. 
There are more incredible stories that are stranger than 
fiction. A current example is that in a 2000 flood, we had a 
FEMA declaration, and we had rip-rap along a stream that was 
coming away. A major problem. We had the State Historic 
Preservation Office ask us to use a manual shovel on 18-inch 
stone. This is a physical impossibility.
    The anecdotal stories are true representations of 
frustrations felt by municipalities and design professionals, 
which spend needless time, resources and talent responding to 
ridiculous commentary. In order to minimize this, 
reauthorization should mandate peer review of environmental 
technical regulations by outside, independent experts in 
technical fields affected by the regulation's implementation.
    Maximizing infrastructure quality is a matter of research 
in surface transportation. A Federal research program should 
focus on emerging and long-term issues, including the 
traditional transportation themes, but expanding on items such 
as creative financing and infrastructure security.
    Mrs. Kelly. Ms. Lehman, I am sorry, but you are running out 
of time. Could you summarize, please?
    Ms. Lehman. In summary, I would just like to reiterate that 
the needs out there are great. We need to be able to provide 
more bang for the buck, as well as keep the funding at the high 
levels.
    Thank you.
    Mrs. Kelly. Thank you very much.
    Because he has a prior commitment, I am going to allow 
Congressman Quinn--and because she has a prior commitment, I am 
going to all Congresswoman Johnson--to go ahead of Congressman 
Borski and myself in their questioning.
    Congressman Quinn?
    Mr. Quinn. Thank you, Madame Chairwoman. I appreciate your 
understanding.
    I want to thank the full panel. While I was not here for 
your testimony, I appreciate and have taken a look at your 
statements. All of you other four members on the panel are 
elected officials. Maria Lehman, I talked into her job, so I 
feel responsible for her being here this afternoon.
    I represent Erie County in New York and we have been long-
time friends; an expert in the field. I want to assure the four 
of you that if you could you would love to have her on your 
staff to do the great job she does for our county executive, 
Joel Giambra, in Erie County.
    Maria, when you were talking about peer review by an 
outside agency, I thought we had another Enron hearing, like a 
dozen is not enough in the Congress.
    I wanted to give you a chance during my time to talk about 
the Garvey bond issue, and its effect on a place like Erie 
County, New York because I think it is typical of what we are 
looking at all across the country.
    Ms. Lehman. Basically it is a Federal guarantee where the 
locals, States, or municipalities can actually bond the 
projects with a Federal guarantee.
    We are now working on that in Erie County. I might add that 
there are about a dozen States that have actually taken 
advantage of that. Even though the legislation allows local 
municipalities, no one has ventured into that water. We are 
venturing into it right now. What it does allow for is the fact 
that--right now my backlog is about 50 years at the level we 
are doing our work. Obviously, with the life span of a road 
being approximately 20 years and a bridge 30, we will never 
catch up. What it is trying to do is solve some of our problems 
on the infrastructure system, while at the same time providing 
for the economic growth that we need so badly right now.
    Mr. Quinn. Thank you so much.
    I yield back.
    Mrs. Kelly. Thank you very much, Mr. Quinn.
    Ms. Johnson?
    Ms. Johnson. Thank you very much, Ms. Chairwoman.
    Calling this hearing and being here for it is important. It 
is especially important for my State and my area, Texas, which 
is miles and miles and miles of highways. Contrary to some of 
the other parts of the country, our population in the Dallas/
Fort Worth area doubled in the last 5 to 6 years. So we are out 
of containment and we are trying very hard to address it 
through some of the highway money. If we do not get it, we will 
be in worse shape. So I fully support the bill, and I have 
about 30 others to join me. We have a councilwoman from Dallas 
who served on the DART board for 4 or 5 years, who is very 
familiar with our transportation system.
    Thank you to all the witnesses for coming today.
    Thank you very much.
    Mrs. Kelly. Thank you very much, Ms. Johnson.
    I have a couple of questions. First I would like to address 
a question to Mr. Barr.
    Mr. Barr, you talked about the impact of a budget cut on 
you specifically. Have you seen a magnifying effect falling 
into place in some of the States, or have other State governors 
spoken with you about a magnifying effect if we come back with 
a reduced amount of money that is available to the States? 
Would this have an impact on you and on your city?
    Mr. Barr. Yes, ma'am, it would have a very substantial 
effect. I think you have heard testimony this morning about the 
backlog of projects. These projects, to me, especially in the 
urban areas, lubricate the machinery of the economy. When 
projects are delayed, not only do we not have the money being 
spent on the projects, but it has other ramifications that 
negatively impact the economic growth and the economic 
activity.
    Mrs. Kelly. If I understand you correctly, you are saying 
that a reduction in jobs is the result.
    Mr. Barr. Not only are there direct jobs that are lost, but 
there is an echo effect out into the general economy. At the 
very least, there is enormous missed opportunity for economic 
growth and expansion and enhanced employment.
    Mrs. Kelly. Thank you.
    Mr. Hart, a couple of States--my own State of New York, 
California, Pennsylvania, Texas--transfer a significant portion 
of their Federal highway funds for use in transit projects. 
These are flex funds, and you spoke about them. I am just 
wondering how your State's ability to use the flex funds for 
the transit programs would be affected by a decrease.
    Mr. Hart. That would be significant, even though I cannot 
put a dollar value on it right now, in part, jokingly, because 
our Legislature is in session and will be for another month or 
so.
    But very directly, just in my immediate community of 
Hillsborough County--and we have three cities, Tampa, Plant 
City, and Temple Terrace--but we have over 1 million people. As 
a major urban center, our challenge really is to get more 
people to use our transit system. Without that, we are now 
finding out that we cannot get outside the immediate urban 
area. And without that, the significance is that there are 
600,000 people that live beyond those municipal boundaries and 
just 300,000 inside, in round numbers. So you have two-thirds 
of our population that we cannot serve if we cannot have a mix 
between transit and our regular road system. So that would be 
the impact to us if that decreases.
    Mrs. Kelly. Thank you.
    That backs up what you said, Ms. Miller. So let me talk to 
you about some of the growing pains that happen in rural areas 
when development spreads. Certainly in the area I represent we 
have seen a lot of this.
    Was TEA-21 effective in addressing the transportation needs 
in rural communities before this?
    Ms. Miller. Every reauthorization, from ISTEA to TEA-21, we 
have had improvement. As I spoke about having a seat at the 
table, a lot of times the rural counties do not have staff, so 
they know all the information that staffs know in the urban 
counties. Then the urban county sends their official, who has 
not been at the table working on these things locally. So that 
is a reference as to why I believe that they are equally--or 
more so, sometimes--qualified to be at the table as a rural 
official.
    So I think it has made a difference. In my State, we have a 
regional planning commission that the State has chosen to use 
as the vehicle to meet the intent of TEA-21, and that is 
working. We do have a larger say. But not all States are that 
lucky, to have a State that is willing to put a process in 
place.
    Mrs. Kelly. Thank you.
    I have one question for the whole panel.
    Going back to this job issue, are transportation-related 
jobs an important component of the labor market in your city or 
county? And have you estimated in any way the potential job 
loss impact on your city or county if the proposed highway 
funding cuts are not restored?
    I am throwing this out to the entire panel, so we can start 
with whoever wants to start first and then pick you all up.
    Mr. Hart. I would be glad to address this in two ways. Let 
me address welfare to work on one side, where transportation is 
a key component.
    As you know, we were all challenged with a 2-year time 
limit to move people off welfare, as we knew it, to jobs with 
training and transportation being a key. In my community, we 
had over 14,000 families, and now we have less than 1,000. Even 
with that progress, many of them are still at the poverty level 
and transportation is a key component.
    The second side of that is--there was just a report 
rendered that addressed the MSA of my community and said that 
in our last full report our community led the Nation in job 
creation. If you look internal to that, the largest jobs were 
created right in my immediate community. To give you a further 
example, we just had hundreds of new jobs--CitiCorp has come 
down, Uniroyal. These are all there and they are not entry-
level jobs. We are talking about $50,000 a year and up. And we 
are talking about in the thousands. We are creating a new 
community a year with over 17,000 to 18,000 people, and it is 
that new growth of the economy because 10 years ago we began to 
focus locally and regionally on our transportation systems. But 
for that, we would tell you that we could not be there today.
    Mrs. Kelly. That is incredible.
    Does anybody else want to pick up on that?
    Ms. Greyson?
    Ms. Greyson. I would like to say that in Texas it is 
projected that we will lose 13,000 transportation-related jobs 
if this cut takes effect. And since the Dallas/Fort Worth 
metroplex provides a large number of those jobs, it will very 
negatively affect our metroplex and its economic health.
    Mrs. Kelly. Ms. Miller?
    Ms. Miller. In rural communities, construction jobs are one 
of the best paying jobs available. So because we do not have an 
equal seat at the table, if this cut takes place, the rural 
aspect is probably going to be hurt worse than the urban 
aspect. That is just going to create more poverty in those 
counties across America that are really struggling just to keep 
even at this point.
    Mrs. Kelly. Ms. Lehman?
    Ms. Lehman. As I mentioned, statewide we are looking at 
14,500. Again, our projections are with the amount of 
investments that are going to have to be made in lower 
Manhattan, we see those job cuts are going to happen in upstate 
New York and are going to directly correlate to the areas that 
have had the economic problems throughout the last decade.
    Mrs. Kelly. Mayor Barr?
    Mr. Barr. I would just echo that the job loss will be very 
negative. I think the numbers Ms. Greyson has quoted make sense 
for our metropolitan area. It will have a very negative effect.
    Mrs. Kelly. Thank you very much.
    We go now to Mr. Borski.
    Mr. Borski. Thank you, Madame Chair.
    Mayor and councilwoman, perhaps you have a friend in the 
White House who might try to help a little bit?
    Ms. Greyson. We certainly hope that we are going to be able 
to help convince the President that he should be supportive of 
the restoration of the funding.
    Mr. Borski. Mr. Mayor, obviously we welcome your help as 
well.
    I did want to ask, however, about the MPO and how that 
works. Is it working? Is it working well? The idea in ISTEA was 
to take the power away from rural America, which was 
controlling all those highway dollars, and give a little input 
back to the cities and counties. Has that happened?
    Mr. Barr. Our MPO has been a tremendous success story. 
Dallas and Fort Worth have a somewhat contentious history. At 
the MPO--and this is partly because of superior staff 
leadership--we have created the greatest partnership that I 
know of. We get great partnering between the eastern and 
western regions within the MPO, but also between the small 
cities and the large cities. It is a great forum. And I believe 
it is because we come together and we share the problems and 
the perspectives and there is a great dialogue.
    And if you go back to my earlier testimony, I think we need 
to take that model to the local and State relationships and 
create more of a round table of dialogue there. That would 
solve some of the problems that we are most concerned about at 
that level.
    Mr. Borski. So it works really well from your perspective?
    Mr. Barr. I cannot tell you how impressive it is. I hear 
other mayors from other parts of the country complain about 
their relationship with the MPO. That is not the case in north 
central Texas. We have a great success story, great model.
    Mr. Barr. Ms. Miller, why does it not work for rural 
America?
    Ms. Miller. Well, because it does not have the same 
standing as the MPOs do. The rural planning organizations are 
more of a consultation process where you just kind of identify 
issues in your community, where the MPO--and I have served on 
our MPO, we have a small MPO--it has a more direct effect on 
what project is selected.
    Our MPO does not work as well as yours does. The way it was 
set up, there is one representative from the county and four 
from the city. The area outside the city limits, that are in 
the urban service area, is supposed to be the MPO boundaries. 
But all the planning seems to stop at the city limits. We 
always have those imaginary lines that are saying stop, where 
it is supposed to be planned for the whole area. It is not. I 
focus on that a lot at our State level, but it is the way. If 
we do not force it, it is not going to change.
    Mr. Borski. I guess my question is, Do you have the same 
lack of success at the State level?
    Ms. Miller. As far as having input?
    Mr. Borski. Yes.
    Ms. Miller. I do not, because I am pretty forceful in 
getting my point across. But if you have not been involved in 
things like I have--I was Chair of the Highway Subcommittee of 
NACo, I was more familiar with the process and it was easier 
for me to approach my State, to know where the funds were and 
how to work towards that. The general county officials do not 
have that ability.
    Mr. Borski. Mr. Hart?
    Mr. Hart. I would like to address that as well. There are 
two aspects to this. I testified a few weeks ago before the 
Senate. That was a key point I was making there, so I am glad 
you asked.
    One, even though it was provided under law in TEA-21, the 
Department of Transportation has not given administrative 
guidance on that aspect. That is one part. The second part is 
for communities, particularly rural, that have populations of 
50 to 200,000. They do not have the same authority that I have 
in my community with over 1 million.
    So those are two, sort of, balancing things. One is simple 
guidance and the other is Federal authority for them to act in 
a similar way.
    Mr. Borski. Thank you.
    Councilmember Greyson?
    Ms. Greyson. Although I share with Mayor Barr a 
participation in a very successful MPO, National League of 
Cities has heard from many of its members--most of whom are 
small cities--that they do not have the same ability that we 
have in our MPO. Part of that is that there are the funding 
issues for MPOs. Many MPOs are not adequately funded, so cannot 
staff and cannot do the range of things that our MPO does.
    Mr. Borski. Ms. Lehman?
    Ms. Lehman. I would add that I think there is great 
inconsistency between MPOs around the country. I would totally 
agree with the fact that there needs to be administrative 
guidance. I think there are some best practices around the 
country that could provide very good input. We have--I would 
not call it a dysfunctional MPO--but we are working towards 
being more functional. But a lot of that has to do with my own 
personal regulatory involvement around the country and the fact 
that I have had involvement in MPOs in other parts of the 
country. I think that practice is being shared and might be a 
way to get those inconsistencies out of the system.
    Mr. Borski. Ms. Lehman, you raised something that has 
intrigued me for a while now, and that is the question of the 
trust fund and use of ethanol, which are things that most of us 
who are environmentally sensitive applaud. We would like to 
have cars that run at higher and better rates. That would also 
affect the trust fund.
    I am glad you raised that because I would be interested in 
your views as to how we make up for that. This could be a 
serious long-term problem for us as the use of ethanol 
increases.
    Ms. Lehman. I think ethanol is a small issue compared to 
what we will see with fuel cell technology. As a practicing 
professional engineer, the technology for fuel cells has been 
there, we just have not had the right prices to kind of thrust 
it upon us.
    I think we are coming to a time when we are going to be 
able to have a single passenger vehicle that has the speed to 
pick up and the distance so that we will be able to do that. We 
are going to have to look at--there is a mix there. Obviously, 
you want to encourage people to use creative technology, 
without starving yourself. But I think you are going to have to 
look at the same type of user fee down the road for some of 
these emerging technologies as they come on line. I think that 
is why it is very important that there is some focus on the 
Federal level on some research in this area as far as how we 
make that transition. It is going to be a thin line between 
getting people excited about using fuel cells versus looking at 
what our trust fund balance is.
    Mr. Borski. Thank you all very much.
    Mr. Johnson [assuming Chair]. I have a couple of questions 
to address to various of you and then a brief comment. Feel 
free to keep your comments very, very brief, since we are at 
the end of the day now.
    Mayor Barr, I have two questions for you. First of all, can 
you give us some examples of the economic impact of 
transportation investment in your community and what happens 
when that investment is not made? Secondly, I would like 
examples of how your city transportation system is utilizing 
intelligent transportation systems. Feel free to keep those 
very brief. I am sure you have addressed some of them before.
    Mr. Barr. First of all, I think the most visible project in 
our area has to be the Trinity Railway Express Line that ties 
downtown Dallas and downtown Fort Worth together. This project 
opened last fall and is running more than 30 percent ahead of 
projections. I think the last number I saw was that it was 
taking approximately 10,000 trips a day off extremely congested 
roadways. We will eventually tie that in to DFW Airport, and 
that will be an enormous step forward for us.
    In Fort Worth, we have been working on redeveloping central 
corridors within the city. We are like so many cities, we have 
moved out to the suburbs. We are rebuilding our corridors in 
the cities. Transportation enhancement funds have been very 
helpful in that process.
    All of the newer roadways that have been built or upgraded 
recently have television systems built into them, roadway 
monitoring equipment. We are just learning how to use it, but I 
can tell you that the signage and things like that that 
indicate where the bottlenecks are is very much moving us 
forward.
    In the city of Fort Worth, we recently put the TxDOT 
cameras on our city cable television and we are making that 
information available to our residents during specific rush 
hour times in the morning. It is very helpful.
    Mr. Johnson. Thank you, sir.
    Ms. Greyson, I think everybody recognizes that both 
politically and substantively congestion in major cities and 
suburbs is a huge issue, even some of the outlying areas. What 
do you believe are the most effective transportation measures 
available to address those problems?
    Ms. Greyson. Well, certainly the ITS Program helps us 
manage our highways more efficiently and more effectively. 
Dallas has a full range of ITS programs in place. The fact that 
you can manage congestion using different modes is extremely 
helpful. We have a very active passenger rail program in the 
Dallas area. That, combined with the road building, helps 
manage our congestion. We are trying to be truly multimodal and 
intermodal. That helps us manage our congestion. But we need 
the funding to be able to do that.
    Mr. Johnson. Mr. Hart, the last question is for you.
    How does the availability of the Federal aid highway 
funding specifically affect the ability of States, cities, and 
counties to bond and secure credit?
    Mr. Hart. You will find actually as many differences as you 
will find differences in States and communities. I know earlier 
we talked a little about the Garvey bond. I think the key to 
all this is flexibility. As we see the challenges of 
transportation, you cannot address the challenges without 
addressing the changes in populations and where people are 
deciding to live, and whether transportation leads or follows. 
So you have to have the ability to make decisions on how to 
fund what you need. That is a key part of that.
    Mr. Johnson. Actually, I was prepared not to ask specific 
questions, but to simply make a comment. With the permission of 
the committee, I will do that.
    I know that the issue of the impact of ethanol on our 
highway trust fund revenues has been addressed. I feel 
compelled to comment on ethanol and specifically to emphasize 
my very, very strong support for the use of ethanol and 
renewable fuels. I believe it is critically important that we 
do everything necessary to promote and expand the use of those 
renewable fuels, specifically ethanol. I believe as we move 
forward in addressing transportation funding, we have to be 
careful to do so in a way that does not in any way hinder the 
development of renewable sources of energy.
    I hand back the gavel--which I am very unaccustomed to--and 
I appreciate your letting me have my 2 minutes in the sun, 
here.
    Thank you, ladies and gentlemen.
    Mr. Petri [resuming Chair]. I apologize. We had a 
delegation meeting. I thank you very much for coming and 
offering the testimony. It will be part of the written record 
and we will be reviewing it with staff as we go forward.
    Mr. Borski, did you have any more questions?
    Mr. Borski. No, Mr. Chairman.
    Mr. Petri. In that case, this hearing is adjourned.
    [Whereupon, at 12:10 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]



[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

</pre></body></html>
